<html>
<title> - HEARING ON H.R. 3087, TO REQUIRE THE PRESIDENT, IN COORDINATION WITH THE SECRETARY OF STATE, THE SECRETARY OF DEFENSE, THE JOINT CHIEFS OF STAFF, AND OTHER SENIOR MILITARY LEADERS, TO DEVELOP AND TRANSMIT TO CONGRESS A COMPREHENSIVE STRATEGY FOR THE REDEPLOYMENT OF UNITED STATES ARMED FORCES IN IRAQ; AND H.R. 3159, TO MANDATE MINIMUM PERIODS OF REST AND RECUPERATION FOR UNITS AND MEMBERS OF THE REGULAR AND RESERVE COMPONENTS OF THE ARMED FORCES BETWEEN DEPLOYMENTS FOR OPERATION IRAQI FREEDOM OR OPERATION ENDURING FREEDOM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-80]
 
 HEARING ON H.R. 3087, TO REQUIRE THE PRESIDENT, IN COORDINATION WITH 
 THE SECRETARY OF STATE, THE SECRETARY OF DEFENSE, THE JOINT CHIEFS OF 
 STAFF, AND OTHER SENIOR MILITARY LEADERS, TO DEVELOP AND TRANSMIT TO 
CONGRESS A COMPREHENSIVE STRATEGY FOR THE REDEPLOYMENT OF UNITED STATES 
ARMED FORCES IN IRAQ; AND H.R. 3159, TO MANDATE MINIMUM PERIODS OF REST 
   AND RECUPERATION FOR UNITS AND MEMBERS OF THE REGULAR AND RESERVE 
COMPONENTS OF THE ARMED FORCES BETWEEN DEPLOYMENTS FOR OPERATION IRAQI 
                 FREEDOM OR OPERATION ENDURING FREEDOM

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 27, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
45-061                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK E. UDALL, Colorado              ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            BILL SHUSTER, Pennsylvania
DAVID LOEBSACK, Iowa                 THELMA DRAKE, Virginia
KIRSTEN E. GILLIBRAND, New York      CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             K. MICHAEL CONAWAY, Texas
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Friday, July 27, 2007, Hearing on H.R. 3087, To Require the 
  President, in Coordination with the Secretary of State, the 
  Secretary of Defense, the Joint Chiefs of Staff, and Other 
  Senior Military Leaders, to Develop and Transmit to Congress a 
  Comprehensive Strategy for the Redeployment of United States 
  Armed Forces in Iraq; and H.R. 3159, To Mandate Minimum Periods 
  of Rest and Recuperation for Units and Members of the Regular 
  and Reserve Components of the Armed Forces Between Deployments 
  for Operation Iraqi Freedom or Operation Enduring Freedom......     1

Appendix:

Friday, July 27, 2007............................................    45
                              ----------                              

                         FRIDAY, JULY 27, 2007
 HEARING ON H.R. 3087, TO REQUIRE THE PRESIDENT, IN COORDINATION WITH 
 THE SECRETARY OF STATE, THE SECRETARY OF DEFENSE, THE JOINT CHIEFS OF 
 STAFF, AND OTHER SENIOR MILITARY LEADERS, TO DEVELOP AND TRANSMIT TO 
CONGRESS A COMPREHENSIVE STRATEGY FOR THE REDEPLOYMENT OF UNITED STATES 
ARMED FORCES IN IRAQ; AND H.R. 3159, TO MANDATE MINIMUM PERIODS OF REST 
   AND RECUPERATION FOR UNITS AND MEMBERS OF THE REGULAR AND RESERVE 
COMPONENTS OF THE ARMED FORCES BETWEEN DEPLOYMENTS FOR OPERATION IRAQI 
                 FREEDOM OR OPERATION ENDURING FREEDOM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Keane, Gen. John M., USA (Ret.), Former Vice Chief of Staff, 
  Department of the Army.........................................     4
Korb, Lawrence J., Senior Fellow, Center for American Progress...     8

                                APPENDIX

Prepared Statements:

    Korb, Lawrence J.............................................    49

Documents Submitted for the Record:

    Amendment in the Nature of a Substitute to H.R. 3159 Offered 
      by Mr. Skelton of Missouri.................................    67
    H.R. 3087....................................................    72

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Murphy...................................................    79


 HEARING ON H.R. 3087, TO REQUIRE THE PRESIDENT, IN COORDINATION WITH 
 THE SECRETARY OF STATE, THE SECRETARY OF DEFENSE, THE JOINT CHIEFS OF 
 STAFF, AND OTHER SENIOR MILITARY LEADERS, TO DEVELOP AND TRANSMIT TO 
CONGRESS A COMPREHENSIVE STRATEGY FOR THE REDEPLOYMENT OF UNITED STATES 
ARMED FORCES IN IRAQ; AND H.R. 3159, TO MANDATE MINIMUM PERIODS OF REST 
   AND RECUPERATION FOR UNITS AND MEMBERS OF THE REGULAR AND RESERVE 
COMPONENTS OF THE ARMED FORCES BETWEEN DEPLOYMENTS FOR OPERATION IRAQI 
                 FREEDOM OR OPERATION ENDURING FREEDOM

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                             Washington, DC, Friday, July 27, 2007.
    The committee met, pursuant to call, at 9:34 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, we will come to order.
    I might mention there will be absolutely no demonstrations 
of any sort tolerated today.
    The House Armed Services Committee meets to hold hearings 
on two bills: H.R. 3159, concerning deployment policy, and H.R. 
3087, a bill regarding planning for redeployment of troops from 
Iraq.
    Later, at 1 p.m. today, in this room, our committee will be 
holding a markup of each of these two bills, so our witnesses' 
statements will have an immediate impact--something not often 
seen.
    Today, I am pleased to welcome two very familiar faces and 
old friends coming back to our committee: General John Keane, 
former vice chief of staff of the Army, and Dr. Larry Korb, 
currently a senior fellow at the Center for American Progress 
and a former assistant secretary of defense.
    Gentlemen, we welcome you, and we appreciate your being 
with us very, very much.
    First, an administrative note. I understand that General 
Keane has to leave at 11:30 a.m., promptly.
    Is that correct, General?
    General Keane. That is correct.
    The Chairman. And the staff has to rearrange the room 
before the markup. And this means that the hearing has to end 
promptly at 12 p.m. So I will ask members and witnesses to be 
as brief as they can. I will keep my opening statement short, 
and hopefully Mr. Hunter will agree to do that as well.
    We are here today, as I mentioned, to consider two bills, 
two issues.
    First, this hearing is an important effort to learn and to 
understand what the impact is on our troops and their families 
from frequent and extended deployments. The Department of 
Defense has established a goal that active-duty servicemembers 
should be deployed for one year with two years back in home 
station. The goal for our reservists and guardsmen is five 
years between deployments.
    Unfortunately, the service is not meeting that goal, and 
the Army is actually deploying soldiers for longer periods than 
they have back at the home station. This is a troubling sign, 
since the time back in home station is usually to reset, 
retrain and re-equip the forces.
    It is also having an impact on morale of the troops, as 
well as their families. Military families don't ask for much, 
but one thing they do want and need is predictability and 
stability in the time between deployments. The loss of dwell 
time back home is increasing the burnout among our troops, as 
well as their families.
    And I look forward to hearing from insights from witnesses 
on their insights into the impact these deployment lengths are 
having.
    Second, this afternoon the committee will mark up a bill 
planning for a redeployment from Iraq. And I believe that we 
have reached a bipartisan agreement on this particular subject 
which will be discussed at the markup, but I think it is a 
subject that is well worth exploring.
    A redeployment from Iraq whenever it happens will be huge 
and a complex endeavor, requiring us to move tens of thousands 
of soldiers and other civilians and their equipment as well as 
their supplies out of that country.
    It will be like moving the entirety of several small 
cities. And it can only be done well through the exhaustive and 
detailed planning that has to happen well in advance of any 
actual redeployment.
    We can all think of recent examples where plans by the 
Department of Defense were either inadequate or wholly lacking. 
And many observers have blamed Congress for not conducting 
oversight to ensure that there were effective plans.
    Whatever the justice for these comments, I am determined, 
as I think all members here, that such criticisms not be 
leveled at us in the future.
    So, gentlemen, we thank you again, Mr. Korb, General Keane, 
for being with us today. And thank you for your contributions 
to our country as well as your testimony today.
    My friend, my colleague, the gentleman from California, 
Ranking Member Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Mr. Chairman, thank you and good morning.
    And good morning to our witnesses. We appreciate both you 
gentlemen for your longstanding service to the country and to 
this committee, particularly with your insights in important 
areas. This is one of those times when we need those insights.
    This morning, the committee is going to benefit from your 
testimony with respect to a couple of very important issues 
that we are going to be discussing and marking up, as I 
understand, this afternoon.
    One would impose statutory requirements regarding periods 
of rest and recuperation for Armed Forces units that deploy in 
support of Operation Iraqi Freedom. And one would require the 
President to provide Congress with a comprehensive strategy for 
the redeployment of the Armed Forces from Iraq.
    To be honest, I have got concerns about both of these 
legislative initiatives. And I hope that you can help us better 
understand their implications on our national security 
interests, on U.S. military personnel and readiness, on Iraq 
and on the broader Middle East region.
    H.R. 3159, as well the substitute to it that will be 
offered by Chairman Skelton today, would prohibit the 
deployment of active and reserve component units that did not 
meet certain minimum stand down or dwell time requirements 
between deployments.
    I believe that such prohibitions intrude heavily and 
inappropriately into the constitutional duties of the President 
as Commander in Chief.
    Beyond that, both dwell time proposals appear to be not so 
much efforts to improve the readiness of units and quality of 
life of members of the Armed Forces, but rather to force a 
withdrawal and reduction of U.S. forces committed to Operations 
Iraqi Freedom and Enduring Freedom.
    I say that because the structure of Chairman Skelton's 
substitute would focus deployment prohibitions on Iraq. As I 
understand it, his substitute would prohibit the deployment to 
Iraq of certain forces which did not meet certain dwell time 
minimums, but allow those very same forces, regardless of dwell 
time, to be committed to combat in Afghanistan or anywhere else 
in the world that they might be needed.
    Moreover, I am concerned that by statutorily reducing the 
pool of forces available for deployment, essentially putting 
brigades and battalions on the shelf, so to speak, either H.R. 
3159 or the proposed substitute will have the actual effect of 
increasing the stress on the readiness, personnel tempo and 
deployment tempo of the units that remained available to meet 
combatant commander requirements.
    It may also put forces deployed in-theater at increased 
risk if the Army and Marine Corps, for example, cannot meet 
these requirements.
    And, further, it may create a requirement to extend 
committed forces in-theater. So I will be very interested in 
your comments on those issues.
    The other piece of legislation, H.R. 3087, would require 
the President to submit to Congress as a comprehensive strategy 
for redeploying our troops from Iraq, including a plan to 
achieve ``the transition of United States combat forces,'' and 
to limit U.S. military missions to a handful of vaguely worded 
tasks that include supporting Iraqi forces and protecting Armed 
Forces facilities.
    In my view, this language also crosses the well-defined 
line established by our Constitution. We have heard this 
statement in relation to withdrawal plans on the floor of the 
House and in other places, but in light of this legislation, it 
clearly bears repeating: The President shall be Commander in 
Chief.
    It is true that the legislative branch must conduct 
vigorous oversight over the activities of the executive branch. 
It is our congressional prerogative to conduct oversight of the 
Administration, and we do that regularly, oft-times here in 
this very room.
    However, it cannot be our congressional prerogative to 
limit our Nation's Commander in Chief in such a way that would 
effectively paralyze our military, remove operational 
flexibility and impose in statute a rigid set of parameters 
that our military commanders have not requested and by all 
accounts don't want.
    Let us also seriously consider the message that this 
legislation sends to our adversaries.
    The Chairman. Pardon me for interrupting.
    There will be no demonstrations in this room. Next time we 
see that, out you go.
    Pardon me, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Again we are telegraphing intentions by using our 
legislation forum to define limited military missions and sound 
the retreat, all before we receive the recommendations and 
advice of perhaps the most gifted military commander currently 
in the U.S. Armed Forces. And, of course, that is the Petraeus 
report that we expect on September 15th.
    If we want the Department of Defense to share information 
at the appropriate classification levels about our contingency 
planning, let us ask for that. Secretary Gates confirmed 
yesterday that this planning is ongoing.
    Let us get the Department's smart military planners in 
here, listen to what they have to say and provide feedback. Let 
us not presume to become 435 commanders in chief.
    Mr. Hunter. Again, Mr. Chairman, thank you for having this 
hearing. I think it is very timely, very important. And I look 
forward to a vigorous discussion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so much, Mr. Hunter.
    Without further ado, we will go to General Keane.
    We, again, appreciate your past service and your present 
service. And thank you for being with us.
    Followed by Mr. Larry Korb shortly.
    Mr. Keane--General Keane.

STATEMENT OF GEN. JOHN M. KEANE, USA (RET.), FORMER VICE CHIEF 
                OF STAFF, DEPARTMENT OF THE ARMY

    General Keane. Thank you, Mr. Chairman--Congressman 
Skelton, and also Mr. Hunter, fellow members of the committee. 
Thanks for the invitation, even on short notice, to provide 
testimony to you today. And I will make a brief opening 
statement, if I may.
    I come before you today with 40 years involved in national 
security, and the last 6-plus years involved in Iraq, from 
initial planning, the oversight of the invasion, and the last 4 
years dealing with the counterinsurgency. One year of that was 
in uniform and the remaining three years I have been a member 
of the Secretary of Defense's policy board, and the last six 
months as an advisor to General Petraeus and General Odierno.
    I have been to Iraq, from the outset in 2003 up to the 
present, many times. And the last five months, two times, for 
almost two weeks each time. And I leave Thursday for another 
two weeks.
    Let me say from the outset that I understand the 
frustration of the Members of Congress, because I have been 
there myself. The fact is, our strategy from 2003 through 2006 
failed in Iraq.
    It was a short war strategy designed to get a 
representative democracy as quickly as possible before the 
political culture was mature enough to support it, and a 
military strategy designed to train the Iraqi security forces 
and transition to them as quickly as possible. Nowhere in that 
strategy was there a plan to defeat the insurgency. Our 
intention was to leave it to the Iraqis.
    The level of violence increased, as we are painfully aware, 
every single year, despite the progress of a series of national 
elections in 2005 and the installation of a final and third 
government in 2006, while the Iraqi security forces made slow, 
steady and at times uneven progress toward taking over from us.
    But as the level of violence continued to escalate and then 
rage out of control in 2006, it was, in fact, beyond the Iraqi 
security forces' capacity to cope with it.
    As we ended 2006, we were in a real crisis, with violence, 
particularly in Baghdad, raging out of control, thousands being 
killed, many more being evicted from homes, schools shut down, 
markets closed, people afraid to leave their homes, streets 
deserted, and the government unable to provide services and 
certainly unable to protect their own people.
    This newly installed government was moving ever so 
predictably to a fractured state in its first year, which would 
lead to an all-out civil war and then a failed state. Horrific 
consequences would follow: a serious threat to our national 
security certainly, with a much larger war in the region, an al 
Qaeda sanctuary in Iraq, an Iranian hegemony developing in the 
region.
    We, the United States, tried to stop the violence in 2006 
with two major operations in Baghdad. Both failed due to a lack 
of forces, both U.S. and Iraqis.
    By the end of summer 2006, it was clear even to the casual 
observer, that our strategy had failed, that we were in a major 
crisis, and that many believed we were in a hopeless situation. 
It was certainly reflected in the November elections that we 
certainly lacked progress, and we were in trouble.
    It was a difficult, complex situation where serious 
mistakes were made. But in my view, it is far from hopeless.
    As I analyzed this, I came to the conclusion that there was 
only one option that remained that could help stabilize the 
situation. All other options resulted in a worsening situation. 
Increasing advisors, having more of them, pulling back to 
larger bases, pulling our forces or reducing them all led to a 
worsening situation.
    The option to conduct a counteroffensive--which is the 
appropriate military term for what we are doing--with the 
appropriate level of forces to do what we had never done 
before, to control the population and protect it while we 
aggressively attacked the al Qaeda simultaneously in every 
major area that they are in--again, something we had never done 
before.
    Underlying this operation was the recognition of some 
profound truths: number one, that we had the wrong strategy 
from 2003 to 2006; number two, that we had significantly 
underestimated the enemy for three-plus years; and number 
three, that security was a necessary precondition for political 
progress and any chance at economic development, that without 
security we could just not make progress.
    We had a Presidential decision in January to change the 
strategy and to conduct a counteroffensive. The operation began 
in February, and it is now in full stride this month with the 
arrival of the last forces in June.
    The counteroffensive, from its inception, has always been 
temporary. It is not designed to keep the force levels 
indefinitely. The time frame is 12 to 18 months, with the 
intent to stabilize Baghdad, create the conditions to permit 
movement toward reconciliation, and to buy time for the growth 
and development of the Iraqi security forces.
    The operation is recognized by everyone involved that this 
is our last effort to attempt to achieve some definable 
progress and permit political solutions.
    It was never intended to be a military solution, but by 
design to use force to change attitudes and behavior to affect 
political outcomes, which is the environment that all military 
operations are conducted.
    So where are we? In the six months since the operation 
began, and the one month since we had all the forces, there is 
a significant change. First, we are on the offensive, and we 
have the momentum, which was in the opposite direction in 2006, 
when the enemy was on the offensive and had all the momentum 
and we were clearly on the defensive.
    Two, security has improved in every neighborhood and 
district in Baghdad and in the suburbs surrounding Baghdad. I 
have visited almost every neighborhood in Baghdad more than 
once. Schools are open. Markets are teeming with people. Most 
are operating at full capacity; some are returning to it. 
Cafes, pool halls, coffee houses that I visited are full of 
people. Government services, albeit some in a limited and 
uneven fashion, are being applied to the people.
    Almost all Iraqis I have spoken to--and there are hundreds 
across the full socio-economic spectrum, to include Sunnis and 
Shia--almost to a person believe that security has improved and 
we do not want the Americans and the Iraqi security forces to 
leave.
    We are now living with the people in Baghdad on a 24/7 
experience. Sectarian violence, which is the Sunni-Shia 
violence, is down significantly from 2006, with June being a 
one-year low.
    U.S. casualties, while initially increasing--which is what 
you would expect in a counteroffensive; it was true in Inchon 
in Korea, it was true in the Normandy invasion of World War II, 
it was true in the Pacific in World War II, and it was true in 
the counteroffensives in Vietnam.
    But the casualties will come down as the operation 
progresses and succeeds. And in fact, this month, they are down 
30 percent.
    There are two more significant changes.
    First, the grassroots movement among the Sunnis; the fact 
that they are rejecting the al Qaeda, that they are willing to 
fight alongside us against the al Qaeda; and most importantly, 
seeking reconciliation with the Shia-dominated government.
    This is a huge turnaround, which is underappreciated in the 
United States. This is what we have always wanted, the Sunnis 
to achieve their political objectives not through armed 
violence, but through the political process, and it is 
beginning to happen. As such, Anbar Province is almost secure, 
a shocking reality given the events in 2006. In Diala, Ninewa, 
Saladin Province and Babil Province, all have Sunni movements 
toward reconciliation and rejecting the al Qaeda.
    Second, the al Qaeda are on their way to being defeated. 
Time and time again since January, they have tried to derail 
this operation with suicide car bombs, as they have just done 
recently, with the intended purpose to provoke Shia militia, 
similar to what they succeeded at doing with the Samara Mosque 
bombings and their assassination squads in 2006. It has failed. 
The Shia militia are not responding in any way like 2006.
    Moreover, al Qaeda has lost its sanctuary in Anbar and is 
losing it in Diala Province.
    A parenthetical statement: The reasons why the Shia militia 
have not responded are threefold. One is certainly they know 
that we are protecting the Sunni population, which they killed 
and evicted from their homes in 2006 as a result of the al 
Qaeda provocation. They would have to fight through us to get 
to them. They would lose that fight.
    Number two, they know that we are protecting millions of 
Shia, and the feedback of the Shia militia leaders from the 
millions of Shia that are being protected is not lost on them, 
and they do not want to risk that protection. So they stay 
behind their barricades, and they are not attacking Sunnis. 
They are attacking us because they want us eventually to leave.
    But my point with the al Qaeda is their strategy has 
failed. The Shia militia are not responding to anything like 
2006.
    Moreover, the al Qaeda has lost its sanctuary in Anbar and 
is losing it in Diala Province. They are hurt badly. They are 
still dangerous, to be sure, but they are very much on the 
defensive.
    Not all is rosy in Iraq, to be sure, and I am not 
suggesting as such. The Shia militia are attacking U.S. forces, 
but they are fragmented. Sadr is not the leader he was. Maliki 
is on public television taking issue with Sadr because he knows 
that Sadr and he are not aligned in terms of their political 
objectives for Iraq. Sadr is back in Iran depressed and 
frustrated with what has been happening in Iraq.
    The cumulative effect of increased security over a series 
of months, not days and weeks, has the very real prospects for 
the beginning of favorable political reconciliation between the 
Shia and Sunnis. The truth is it has already begun, initiated 
by the Sunnis, and in time, in my judgment, will be followed by 
Iraqi government actions.
    Your actions here in the Congress appear to be in direct 
conflict with the realities on the ground, where the trends are 
up and progress is being made. Your resolution, like so many 
others proposed, ties the hands of our military commanders and 
deprives them of the opportunity to use the appropriate level 
of force for the time that is required to use that force.
    Let me just tell you straight out that our troops took this 
counterinsurgency offensive in stride knowing it would mean 
more loss of life and more catastrophic injuries.
    Their idealism, their courage, I am in awe of. They do not 
want to die, but they are willing to, and that is what 
separates them from the rest of the American people. They are 
willing to give up everything that they care about in life, 
everything, the opportunity to have a full life, the 
opportunity to have parents, to be a parent, to have friends in 
your life, the opportunity to have love in your life, to love 
and to be loved. They do this out of a profound but simple 
sense of duty, and they do it for one another.
    This, in my judgment, is true honor. This kind of devotion 
needs to be supported.
    Members of Congress, I respect your constitutional 
obligations, and I took an oath to willingly defend them, but I 
ask you to fight your demons, to find the courage that our 
troops display so openly, to deserve their honorable and 
selfless sacrifice, to not squander their sacrifices and the 
gains they have made.
    This is not about a President. It is not about an 
Administration. It is not about Democrats and Republicans 
gaining advantage over each other. This is all about the 
American people, their security, and as such, our very real 
national interests in Iraq and the region.
    Members of Congress, I ask you to put these well-
intentioned, but, in my judgment, senseless and embarrassing 
resolutions aside. Yes, we have made mistakes, serious ones. 
This is not the time to give in to our frustrations, to give in 
to our anger, and to give in to our fears.
    I ask you to wait for General Petraeus and Ambassador 
Crocker to have their say here in September and then you decide 
if you can support the prospects of future success in Iraq.
    Thank you. I look forward to your questions.
    The Chairman. General, thank you so much for your candid 
statement. We appreciate it very much.
    Mr. Korb.

   STATEMENT OF LAWRENCE J. KORB, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Korb. Thank you very much, Mr. Chairman, Leader Hunter. 
It is a privilege to be back here before you once again to talk 
about the two bills that you have before you which, in my view, 
you must pass as quickly as possible. Let me explain why I 
think that is so.
    First of all, you have the power, and it is very clear if 
you go back--and the Congressional Research Service has just 
prepared an analysis of things you have done in the past, 
whether it is during the war in the Philippines, the Korean 
War, the Cold War or Central America--you have put restraints 
on military forces.
    For example, during the Korean War, it was the Congress 
that insisted that people not be sent into that battle unless 
they had four months of training. Can you imagine that we 
needed to do that, that the executive would even think about 
that, and the Congress had to step up? So you have the power to 
do that.
    Similarly, I think in terms of getting the President to 
prepare a redeployment plan, you need to do that because there 
is no fallback position. As much as I respect General Keane and 
some of the things he said, I cannot emphasize this too much: 
This surge is built on sand. It cannot succeed, and I will 
explain why it cannot.
    But let me talk first about the situation with our troops. 
What are you asking? You are allowing the Administration to 
violate its own policies when it comes to deploying troops. 
When I had the privilege of serving in the Reagan 
Administration, the idea was that for every month you spent in 
a combat zone, you would spend two months at home.
    You are allowing them one month, and you are also allowing 
the President to waive it. That is nonsense. The fact of the 
matter is you are doing what is right for the troops because 
this Administration will soon be history, but you are going to 
have to live with that military force, and if you do not act 
now, it is not going to be in the shape that it needs to be to 
carry out our security, and I will get into some of those 
reasons.
    Now, if you take a look at what is happening to our 
readiness--and, again, as much as I respect General Keane, take 
a look at what other generals have said--General Powell, 
General McCaffrey, General Abizaid, General Blum, General 
Odom--about the situation with our Army, okay. It is broken, 
okay.
    General Abizaid put it very well: This Army was not 
designed for a long war. And I say to those people who want to 
keep up this surge indefinitely, if you have the courage of 
your convictions, then call for reinstatement of the draft, 
because our volunteer Army was not designed, as General Abizaid 
said, for the long war.
    We had a small active-duty Army. The Guard and Reserve was 
going to be a bridge to conscription. If you want to do that, 
have the courage of your convictions. If not, then you have to 
do what Congressman Tanner and Congressman Abercrombie are 
talking about in terms of preparing a redeployment plan and 
what Congresswoman Tauscher and Congressman Skelton are talking 
about in terms of allowing the people to have this time in 
between deployments.
    Not only is it strategic because, because of this surge, 
you do not have a single brigade of the 82nd Airborne on 
strategic operational ground reserve left in this country. We 
have other interests. Our objective is not ``whatever it might 
mean to win the war in Iraq,'' but to provide for the overall 
security of the United States.
    Not only do you have to worry about military readiness, but 
what about your moral obligation to the men and women who 
volunteer to serve? When they volunteer, we have certain 
understandings in terms of how long you will be mobilized if 
you are in the Guard and Teserve and how much time you will get 
between deployments.
    And if you look at every poll, whether it is conducted by 
the Army Times, whether it is conducted by CBS, the support 
among the troops for this ill-considered war is declining, and 
if you do not believe the polls, look at the suicide rate, look 
at the desertion rate, look at the divorce rate. This is what 
is happening.
    Look at what is happening to recruiting because American 
people have turned away from this war, and they are 
discouraging--as we call them, the influencers--the men and 
women who ordinarily would be attracted to join the Army from 
coming in.
    Last year, the Army increased its age for first-time 
enlistees to 42. It took the number of non-high school 
graduates to about 20 percent. It tripled the number of people 
scoring below average on the Armed Forces qualification test.
    And what happened? Even with that, it had to give over 
8,000 moral waivers--8,000. That is 10 percent for the active 
force. This year, the Army is not meeting its recruiting goals, 
and those waivers are up to 12 percent.
    You have taken in, last year, 900 people with felony 
convictions. That is the Army that will be left when this 
Administration leaves office, and this is the Army you have to 
deal with.
    And they say, ``Well, retention is good.'' Yes, retention 
is good among career people, but it is not good among first-
term people, people who have not made the career decision. The 
Army is seven percent short of people completing their first 
tour.
    And what about officers? Retention among West Point 
people--these are your future leaders--is as low as it has been 
in the last 30 years. The Army is 50 percent short of senior 
captains, and the promotion rate from captain to major is 
almost 100 percent. These are going to be our future leaders. 
This is the Army that we are dealing with if we do not do 
something.
    Now we have done studies at the Center for American 
Progress in terms of the deployment of active-duty brigades and 
enhanced brigades in the Guard, and if you take a look at those 
numbers, they are startling. You have two brigades on their 
fourth deployment. You have nine on their third deployment. 
Twenty have been deployed twice.
    The four Guard brigades that have been alerted and are 
scheduled to deploy to support this surge are not ready because 
they do not have the equipment to get themselves ready, and all 
of them are being sent back without the minimum of three years 
at home.
    The governor of Ohio asked the President, ``Before you call 
them up, you certify that this is ready to go.'' He has not 
done it. So this is basically, you know, what the situation is.
    I remember when I got off active duty and went back to 
graduate school and was writing about how did we get ourselves 
involved in this mess in Vietnam, and I remember interviewing 
General Maxwell Taylor and then later on, he said, ``We sent 
the Army to Vietnam to save Vietnam. We took it out to save the 
Army.'' And this is the situation you are now in in Iraq.
    Now let me conclude by talking a little bit about the 
surge. The surge was premised on the fact that if you got 
security under control, the Iraqi government would make the 
painful political compromises. That is not why they are not 
making them. They do not want to. They do not have the capacity 
to do that.
    Remember that Maliki promised four months after the 2005 
election he would amend the constitution. They have not done 
it. You take a look at those 18 benchmarks the last time. Even 
though they claimed progress on a couple, they simply were not 
true.
    The other premise is that the Iraqi security forces, if we 
gave them time, would be ready to do what they need. Nonsense. 
They have had enough training. The question is motivation for 
these Iraqi forces. There is no Iraq for them to fight and die 
for.
    If you take a look in Baquba, we asked for 11,500 Iraqis to 
come; 1,500 showed up. They are loyal to their tribe or sect, 
not to the country. Many of them have more training than young 
men and young women we are sending over there as part of 
brigades.
    If you take a look at one of the brigades of the 3rd 
Infantry Division from Fort Stewart, what happened was 140 
people joined that unit right out of basic training, missed the 
unit training, got 10 days of deployment before they were sent 
over there. And I have other examples, you know, in my 
testimony.
    Why did they fight and die for us? Because they have a 
country, they are loyal to us. So, with the Iraqis, it is not 
training. They have the training. The real question is 
motivation.
    The other is that we did not send enough troops. If you 
read General Petraeus' own manual, we do not have enough 
troops. If you had a couple hundred thousand more troops, you 
were willing to stay there for 10 years and the Iraqi security 
forces could step up and these political leaders would do what 
they need to do, then maybe you would have a chance, but that 
is not going to be the case.
    We have put out a plan at the center called Strategic Reset 
which says we have to change our policy toward the whole Middle 
East, and part of it is to set a withdrawal date and undertake 
a diplomatic surge. Until you set that withdrawal date, the 
countries in the region, all of whom are involved in Iraq in a 
non-constructive way, will not get involved constructively, and 
I am convinced that once you set that withdrawal date, those 
countries will know that, in fact, it will be their problem as 
well as our problem, and none of them want to see Iraq become a 
failed state or a haven or a launching pad for international 
terrorism that can contain them.
    All right. Let me conclude with this. Twenty-five, 26 years 
ago, this Congress gave me an unprecedented opportunity to deal 
with the readiness of our Armed Forces, and at that time, it 
was not good. But because of the support of this committee, 
Congress and future Congresses, Administration, we were able to 
rebuild our Armed Forces, particularly the Army, and the Army 
that we sent into Iraq was probably one of the finest we have 
ever had, but it is not there now, and the longer you stay, the 
worse it is going to get.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Korb can be found in the 
Appendix on page 49.]
    The Chairman. Mr. Korb, thank you very much.
    Mr. Abercrombie. Mr. Chairman.
    The Chairman. Mr. Korb, thank you very, very much for----
    Mr. Abercrombie. Mr. Chairman.
    The Chairman. Yes.
    Mr. Abercrombie. Point of inquiry.
    The Chairman. You bet.
    Mr. Abercrombie. Thank you.
    Mr. Chairman, you are aware and I think most of the members 
are aware that at least where 3087 is concerned--I am not sure 
about the other one--it is my intention to offer an amendment.
    The Chairman. I am about ready to mention that.
    Mr. Abercrombie. Oh, okay, because I was hoping----
    The Chairman. Thank you.
    Mr. Abercrombie [continuing]. That it might help clarify 
things.
    The Chairman. I was going to do that.
    First, let me mention that because of the time limitations 
of the witnesses, we hope we can condense our questions as much 
as possible. There are two substitutes, one on the 3087. A 
substitute will be offered by Mr. Abercrombie and Mr. Turner to 
that at a later moment, and, hopefully, you have that in front 
of you. And I have a substitute to 3159. I hope you have a 
resume of that in front of you. If not, the staff will be glad 
to get it for you.
    I will ask one question, then ask Mr. Hunter to proceed.
    I have a serious concern, and that is this thing called 
readiness. If the future is anything like the past, as sure as 
God made little green apples, we are going to have military 
challenges in the future.
    Out you go. Out you go. All of you, out.
    As sure as God made little green apples, something is going 
to happen in the future. We do not know what.
    The last 30 years, we have had 12 military contingencies, 4 
of which have been major in scope, most of which have been 
unexpected. Mark Twain once said that history does not repeat 
itself, but it sure rhymes a lot, and we do not know what is 
around the corner.
    And that is the job of this committee. It is the job of 
Congress to keep the readiness level high. That worries me. 
That really does. I think it worries every member of this 
committee, and that is one of the purposes of our meeting 
today, our hearing today, and the markup this afternoon, to 
make steps toward having readiness for the future and a higher 
level of----
    Mr. Hunter. Mr. Chairman, could I interrupt for a second?
    The Chairman. Yes? I cannot hear you.
    Mr. Hunter. Mr. Chairman, let me interrupt for a second, if 
I could. Having our guests walk in and out of the door while 
previous guests are shrieking outside makes it tough for us to 
hear you, and I think that this is very serious. We need to be 
able to hear everything you said.
    I would request that if folks want to stay in here in the 
hearing that you keep them in; if they want to go back and 
forth for breaks, that they stay outside and watch it on 
television. There is another gentleman just ready to leave 
right now, and it makes it tough for us to hear you.
    The Chairman. That is a good idea.
    If you are going to leave, leave right now or else stay 
until we have a break or a moment.
    Thank you for your suggestion.
    Mr. Taylor. He just came in. [Laughter.]
    The Chairman. We make an exception for North Carolinians.
    A few moments ago, I was given a report by Solomon Ortiz, 
the gentleman from Texas, the subcommittee chairman of the 
Readiness Subcommittee, on the dire straits of part of our 
military equipment, which goes to the readiness issue, and all 
of this ties together and is of deep concern to each of us.
    So let me ask this one question. Given the short duration 
of dwell time at home station under the current policy, are 
units able to train for missions that would be involved in 
contingencies somewhere else in the world?
    General Keane.
    General Keane. In my judgment, they are not. The troops at 
home station in between deployments to Iraq do essentially two 
things. One is they are recovering from Iraq or Afghanistan, 
and that means recovering their equipment, and people are 
moving out and new people are being assigned, and there is a 
transition period there, and then they are preparing to go back 
to Iraq on deployment.
    And so I think certainly with the size of the Army and the 
Marine Corps that it is today, which is far too small, the 
commitment that we have of about 150,000 to a protracted war 
that lasts more than a few years certainly adds stress to that 
force, and it definitely affects the readiness of the force.
    I mean, the issue for me underlying what you are saying is 
that we knew this at the end of the 1990's that these ground 
forces were too small. We certainly were painfully aware of it 
as a result of the confrontation that took place with radical 
Islam and us on 9/11, and until just recently, we have not done 
much about it, and the fact that finally the President of the 
United States has authorized an increase will start to relieve 
some of that pressure.
    But, in my judgment, that increase still is not sufficient 
because you will by definition have to rely still 
disproportionately on the Guard and Reserves, and I believe we 
have flat broken the social compact with the Guard and 
Reserves, and that truly has to be adjusted, and making them 
more operational, in my view, is not the answer for people who 
are trying to maintain careers and other professions.
    The only answer is to continue to professionalize the 
active forces and increase their size, and so I do believe that 
still can be done, and I believe the American people are up to 
the task, and it can be done within the confines of a volunteer 
force, and then if it could not be done, to meet our national 
security objectives, then certainly I would not stand in the 
way of going back to a draft, but you would have to convince me 
that the American people and the American youth are not willing 
to come forward and participate in the Armed Forces, and every 
indication we have is that they are.
    The Chairman. Thank you, General.
    Mr. Korb.
    Mr. Korb. Well, General Pace, in January, conducted a study 
and basically said we are not prepared to meet other 
contingencies around the world.
    We had a chance to increase the size of the Army right 
after 
9/11. We did not take it. This Congress has been urging the 
Administration to do it. Finally, they agreed this year. But 
the Congress has been pressing them to do that.
    This is not the time to do it. When you have the majority 
of the American people having turned against the war, it is 
going to be very, very difficult to get them to allow their 
sons and daughters or encourage them particularly to join the 
Army.
    It was a missed opportunity. Right after September 11, you 
could have done it. We should have been called as a nation to 
sacrifice. We were not.
    I did not support the invasion of Iraq, but you have a 
President that was determined to go in 2001. He knew it. That 
was the time for him to expand the size of the Army. He could 
have done it. Instead, we did not do it.
    In fact, it is very interesting. Right before September 11, 
this Administration was actually considering, under Secretary 
Rumsfeld, getting rid of two active Army divisions.
    So we missed the opportunity. I am afraid it is too late to 
do it, and my recommendation is now that you have to begin 
redeploying from Iraq in order to save this Army and not have 
to go through conscription.
    The Chairman. Thank you very much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    I would like to begin on a happy note here. Our great 
member, Cathy McMorris Rodgers, is just now rejoining us. This 
is her first hearing back since adding a member to the family, 
Cole. So Cole McMorris Rodgers. We want to welcome him, and, 
Cathy, welcome you back. Congratulations.
    [Applause.]
    Mr. Hunter. Gentlemen, thank you for two very good 
statements, and, you know, I think that your two statements 
taken together frame this issue fairly effectively.
    There are two issues. One is: Is the counteroffensive 
working? Is it a good mission? Is it the right mission? And do 
we need to solidly back this mission to its completion? And the 
second question is: Are the personnel policies that are being 
proposed by the majority that are manifested in these 
amendments hurting or damaging that mission? Will they keep us 
from maintaining the counteroffensive?
    And, Mr. Korb, particularly you have gone back and forth in 
your statements. You have focused on personnel policies, and 
then you have gone to your criticism of the counteroffensive. 
You have said it cannot possibly work, it is built on sand.
    But I think the question for us is--the first question that 
I think we have to look at because we need to make a judgment 
with respect to the counteroffensive which General Petraeus is 
going to report on on September 15--would the changes in policy 
that are being recommended by the majority with respect to 
dwell time damage this mission?
    And if it would--and this is clearly a mission that we are 
embarked upon, which has the support, obviously, of a number of 
members, does not have the support of other members--I think 
the threshold question is: Do we support the mission?
    So the first question I would ask you, Mr. Korb and General 
Keane, is: Do you believe that changing these policies, the 
policies that are manifest with respect to the dwell time that 
are in the proposed amendment, would damage the mission or 
hamper the mission that we have defined as this 
counteroffensive?
    Mr. Korb. No, I do not think so because you give the 
President the authority to waive it, and I think the key issue 
here is that he then must tell you and the American people why 
this is in our vital national interest. So I do not think it 
will.
    The other is everybody agrees, even Secretary Gates, that 
by next spring, you are not going to have enough troops anyway. 
So, I mean, that, I think, is another constraint. Even without 
changing the policies, the agreement is by spring of next year 
you cannot keep this level of troops there.
    Mr. Hunter. General Keane, what do you think?
    General Keane. Well, absolutely it undermines the mission. 
I mean, it takes away flexibility. The commander should be 
given the required force levels for the amount of time that 
they need to prosecute the mission, and that amount of time has 
to be determined by conditions on the ground, not by conditions 
in Washington.
    Those conditions on the ground are the enemy, which we are 
not underestimating as we have done in the past, and we are not 
letting our arrogance get in the way of it, and, two, the 
capacity of the Iraqi security forces to participate as good 
partners with us in the prosecution of the mission.
    Now, based on that, the commanders, if they have the right 
force levels the amount of time that they need it, they have 
the flexibility to do this.
    And we have to be frank about something here. We are 
fighting a war that is in our Nation's interest. Therefore, the 
forces that are fighting that war are expected to be strained 
and stressed. This is a war.
    To be able to say to ourselves that the Army and the Marine 
Corps are stressed and somehow we should not stress and strain 
them to me makes no sense. This is a war. We are fighting a 
war. And, therefore, they are going to be stressed and 
strained, just as they have been in every war that we have 
fought.
    To be quite frank about it, in some of the wars that we 
have fought in the past, because of the difficulty, complexity 
and the weapons used, these forces were expended because of our 
Nation's interest, and that is why our military exists, to 
defend our Nation's interests.
    And, yes, it does cost lives and it is tragic and the human 
dimension of that is horrific, but they are there to support 
our Nation's interest, and the stress and the strain of that 
force is something that we should never be cavalier about, and 
we should do everything we can with programs and policies to 
reduce it, but it is a fact of life when you are fighting a 
war.
    We have choices, and I said this to the President back when 
I was still on active duty when Secretary Rumsfeld asked me to 
take over the recommendation to him that we would do a one-year 
rotation, and I said we have choices. We do not have to do a 
one-year rotation. We can fight this war until its completion, 
as we have fought most of the wars that we have been involved 
in, and that would add a different level of stress and strain 
to the war, I would submit.
    It was in our judgment, based on what we knew at the time, 
that we would do it on a one-year rotation. Little did I know 
at the time that we had the wrong strategy and we were 
beginning to embark on a campaign that so significantly 
underestimated the enemy that by definition we protracted the 
war unnecessarily.
    But, nonetheless, we have choices here, and we have made 
them, and I cannot for the life of me believe that we would 
bring an Army home and lose a war because it is under stress 
and strain.
    And this comment about Maxwell Taylor that my colleague 
here made, he brought the Army home to save it, the Army 
embarked on a 10- to 15-year psychological and emotional 
catharsis based on a humiliating defeat in Vietnam. We 
struggled with everything we had to rebuild that Army out of 
the ashes of that defeat because the officer corps was 
intellectually weakened and the very fiber and soul of the Army 
was hurt significantly by that humiliating defeat. We hardly 
saved the Army by pulling it out of Vietnam.
    Mr. Hunter. Well, General Keane, just one follow-up on 
that. Mr. Korb said that the Army is broken, or he cited a 
statement by one of our generals to the effect that the Army 
was broken. Do you agree with that?
    General Keane. This statement is one of the most offensive 
statements we can make, and I would ask the Members of 
Congress, regardless of how you feel about this 
counteroffensive, not to use that term. Stop using that term.
    These troops in combat know that the majority of the people 
in the United States do not agree with this war effort. These 
troops know in combat that members--and a significant number of 
them--do not agree with this war effort. Yet they are pursuing 
it and risking their lives, and they are volunteering to stay 
in this force at overwhelming numbers. The highest re-
enlistment rates we have are those in Iraq. That is staggering.
    We have none of the major indicators that we had in Vietnam 
that an army is broken. Our absent without leave (AWOL) and 
desertion rates are very low. There are no chain-of-command and 
discipline problems. We do not have personal abuse problems 
like we had in Vietnam, and we are certainly not killing our 
officers to disrupt the chain of command.
    That was an army that was disintegrating in front of us 
because it lost support of its people. This Army, because it 
has been a volunteer force and it is so professionalized and it 
is so disciplined and, in my view, it is extraordinarily 
idealistic, it is so far from broken. It is performing, in my 
judgment, in one of the highest moments we have ever had in our 
military capacity since the inception of the Nation.
    And to use that phrase is a horrible description of who 
they are and what they stand for and what their commitment is. 
They are not broken, and it is not even close.
    Mr. Korb. Mr. Chairman, could I respond to that? Because I 
think this is a really key issue here. This is not a war of 
necessity. It is a war of choice. The idea that somehow or 
another this is the central front on the war on terror is not 
true. In fact, going in here has made us less safe.
    There is no doubt about the fact that these brave young men 
and women have done their job and they will because they are 
sent over there, and I have no disrespect for them. But, with 
all due respect to General Keane, I am quoting General Powell, 
General McCaffrey, General Abizaid, General Odom. These are not 
people who do not know what is going on in this conflict.
    And what you have is the same problem. Once you lower your 
recruitment standards, you are asking for trouble. The suicide 
rate is up. The desertion rate is up already. Are they at the 
same levels that we had in the 1970's? No. But this is the 
first war, extended war, that you have fought without 
conscription, and not only have you not raised taxes to pay for 
it, you have cut them.
    So the idea that somehow or another, you know, we have this 
obligation because we were put in here under the wrong reasons, 
we were not told the truth about it--and then to blame the 
American people for turning against it? No, it is not the 
American people's fault. It is the fault of the Administration, 
and these brave young men and women are paying the price for 
that, and the country will pay the price for it in years to 
come because of the quality of people that are coming in.
    Mr. Hunter. But, Mr. Korb, I do not think those gentlemen, 
I do not think General Odom has said that the Army is broken, 
and that was the point that General Keane addressed.
    And you have two points here. You go back and forth between 
not liking the war and saying that it is going to have an 
extraordinarily bad effect on our soldiers and that the 
soldiers are broken. You have not made that connection.
    Have any of those people that you have quoted, did General 
McCaffrey say the Army is broken?
    Mr. Korb. I will give you the exact quote, okay?
    Mr. Hunter. Okay.
    Mr. Korb. ``The ground combat capability of the U.S. Army 
forces is shot.'' And he said that with me when we testified 
before the Senate Armed Services Committee, okay.
    And if you would like, I would read General Odom's 
statement here about what is happening, the damage, to the 
forces. I would be happy to enter it into the record. I quoted 
some of it in my statement.
    Mr. Hunter. You said ground combat capability. That did not 
say the Army is broken.
    Do you disagree with that, General Keane?
    General Keane. I certainly disagree with any 
characterization that the Army is broken. I mean, it is not and 
it is not even close in terms of their performance, their 
morale, their discipline, all the indicators that we judge the 
capacity of an Army to perform, and the best crucible to the 
judge and Army is in the field in combat, and it is 
magnificent, and their re-enlistment rates are off the charts 
for wanting to continue to do it. That is amazing.
    Mr. Hunter. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hunter.
    Mr. Ortiz.
    Mr. Ortiz will be followed by Mr. Saxton.
    Mr. Ortiz. Thank you so much, Mr. Chairman.
    And I would like to welcome our witnesses today. Good to 
see both of you.
    But, you know, we are involved in two vicious wars, and we 
are at war, but in order to win a war, we have to be 
successful, and in winning a war, we need to be able to train 
our troops and to be able to give them the equipment that they 
need.
    As I visit the troops and we talk to industry, one of the 
problems that we have now is that industry has not been able to 
turn enough equipment to send to either Iraq or Afghanistan, 
and before, we were not even giving the troops the equipment to 
train before they went to Iraq.
    And, yes, we have choices. Mr. Korb mentioned one of the 
choices that we have is a draft, and I do not believe in the 
draft. And the reason I say that is because we have some other 
hot spots around the world. I am concerned with Iran, I am 
concerned with North Korea and now a little concerned with 
Russia, and then I have a concern with what is going on in 
Central and South America, you know.
    So what do we do to be able to motivate? Something has to 
be done to be able to give the soldiers the equipment that they 
need. They cannot produce enough mine resistant ambush 
protected vehicles (MRAPs). They cannot produce enough High 
Mobility Multipurpose Military Vehicles (HMMMVs). They cannot 
produce enough equipment. So how do we surge industry to be 
able to give, you know, the troops what they need?
    I mean, we have 25,000 of them wounded, and we go to, you 
know, Walter Reed, and we go to Bethesda. In my opinion, we 
have serious problems, and maybe for future discussion and 
classified discussion, we need to talk about our prepositioning 
ships, and maybe that would be a subject for another hearing.
    In my opinion, as chairman of the Readiness Subcommittee, I 
feel that we have serious, serious problems with equipment and 
training of the troops, and maybe you can enlighten me as to 
what I am concerned with. Maybe I am wrong with what I have 
seen and what I have heard, and this is a question for both of 
you.
    General Keane. Well, Congressman Ortiz, I think your 
comment has a lot of merit. We do have choices, and we have 
made some difficult choices that have had some rather unhappy 
consequences. One of those choices deals with the industrial 
base.
    The industrial base that supports the Army, the last time I 
checked, a number of months ago, was operating at a capacity 
under 60 percent, and yet we are at war. The industrial base 
that I am speaking of is the depot system inside the Army and 
the defense industry that assists the Army in dealing with 
resetting and re-equipping, and that is not operating anywhere 
near full capacity even now while we are at war.
    Now why is that? Funding, money, a conscious choice not to 
take the industrial base capacity up to full capacity.
    The Chairman. Noted disturbance. The gentleman will leave.
    Please proceed, General.
    General Keane. Congressman, those are choices that we have 
made, and it also impacts on something the committee is very 
concerned about, as the chairman started out in his comments. 
It has an impact on the readiness of the force.
    The reason why we had to move these brigades one a month is 
because equipment was the pacing item. We could not get the 
equipment there fast enough because the industrial base is 
operating in the high 50 percent. Maybe it has changed a little 
bit in the last few months, but it could not have changed 
dramatically since the last time I checked.
    If we did as you are suggesting, if we had a better 
strategy in terms of our equipment and we are willing to spend 
more money on it--and that is what the choice is here--then 
more of these units would be ready sooner, and I also believe 
they would, therefore, be able to train on some other things 
because they would have that equipment in time to be prepared 
for other contingencies as well as have enough time before they 
redeploy to Afghanistan and Iraq.
    But these are choices we made, and we are living with those 
choices.
    Mr. Korb. Congressman Ortiz, the problem is that the 
Pentagon, particularly civilian leadership, never went on a 
wartime footing when it came to procuring equipment. The reason 
for that is they did not think this war would go on this long.
    Remember that they thought we would be down to 30,000 
troops by the end of 2003. The President in 2003, 2004, 2005, 
and 2006 kept telling us the progress we were making, so they 
never did what they should have done, and as a consequence, the 
young men and young women are suffering because of it.
    I mean, Secretary Rumsfeld made a comment about you go to 
war with the Army you have. No, the fact of the matter is you 
started this war at a time of your own choosing, it was not 
necessary to do it when you did, you should have made sure that 
you were ready.
    I am not a military expert like General Keane. I have some 
experience in the Pentagon and some experience in the Navy, but 
we were always taught when you go to war, you obviously hope 
for the best, but you plan for the worst. What they did was 
plan for the best.
    The Chairman. Thank you very much.
    Mr. Saxton.
    Mr. Saxton. Thank you.
    General Keane, in your opening statement, you made six 
points. The first is that we are on the offensive. The second 
is that security has improved across Baghdad. The third is that 
the grassroots movement among the Sunnis has taken hold, 
meaning the tribal leaders have taken over in Anbar and other 
places. The fourth is that al Qaeda is being defeated by our 
forces. The fifth is that the Shia militias can no longer get 
to the Sunnis because our troops are in the way fighting them 
back. And at the same time, our troops are protecting the Shia.
    Those seem like six pretty good objectives being met by our 
Armed Forces. Would you think that we could do that if we had a 
broken Army?
    General Keane. Well, no, absolutely not. The quality of the 
leadership--and when I mean leadership, I am talking officers 
and non-commissioned officers--is extraordinary, and their 
commitment to the mission is.
    We have so fundamentally changed what they were doing. Some 
of you who have been to Iraq, and some of you have been, but, 
you know, for reasons I never quite understood, many of you 
were really denied the opportunity to get out and truly see how 
things are happening. But, nonetheless, the mission in the past 
was one of staying behind your forward operating bases, on 
occasion conducting presence patrols, focusing our classified 
forces on the al Qaeda and training the Iraqis.
    We were never truly on the offensive except intermittently 
in Fallujah, Samara, a couple operations in Baghdad, and those 
were for a very short period of time. Now we are completely on 
the offensive. Our troops are out there protecting the people 
every single day, and they are much in for the mission.
    One is they believe they are having an impact, and they see 
the results of what they are doing, and certainly, the second 
thing that is clearly happening is the impact that that is 
having not just on our own troops' morale, but even more 
importantly on the Iraqi people themselves. People were so 
concerned about it initially. When we go out into the 
neighborhoods and start living in them, the troops are going to 
be more vulnerable. On the surface, that is true.
    But what actually happens, in fact, is the security becomes 
the people themselves because they start to provide information 
to us, and that is the other positive thing that is happening. 
All those Iraqis in the city and in the suburbs know that the 
security situation has improved, that 2007 is better than 2006, 
and certainly 2008 promises, you know, to be even better.
    That kind of performance that they have turned in, to be 
able to change the strategy, change the tactics immediately and 
perform a mission to a very high standard is because they are 
exceptionally well-led, they are extraordinarily disciplined, 
and they are very, very dedicated.
    Mr. Saxton. General Keane, let me just ask you to look into 
your crystal ball for a minute. Having been where you have been 
in this process since and before the inception of operations in 
Iraq, if you had a crystal ball and could look in it, what do 
you see relative to the disposition of our troops going 
forward?
    There are many members of this committee who would like to 
bring our troops home sooner rather than later. I guess all of 
us would. Do you see the surge continuing for an indefinite 
period of time, or do you see us getting into a position where 
we, in fact, will be able to begin to conduct operations in a 
different way or come home?
    General Keane. Yes, that is a great question, and I 
certainly do not want to prejudge what Ambassador Crocker or 
General Petraeus would say here in September. They are their 
own people, and they are going to speak their minds. And having 
spent many years with General Petraeus and just recently having 
acquired a relationship with Ambassador Crocker, I know they 
are going to be very forthright with you and very credible in 
doing it and comprehensive in letting you know what is 
happening.
    But my view is this. This progress that we are making is 
steady, and it will continue to be steady, and it will cement 
the gains that we have made in terms of security and stability. 
I do believe that as time moves on, the significant change 
among the Sunnis is already beginning to impact the Shia 
government because the sheer scale of it, and it is something 
that they have to deal with.
    I believe that more than any of these benchmarks, as we 
call them, will have more impact on the Shia government making 
a positive move toward reconciliation than some of the imposed 
artificial legislation, if you will, that we are imposing on 
them. That will be the most significant movement toward 
political reconciliation.
    In terms of our troops, it was never intended to be 
permanent. It was always intended to be temporary. I believe 
the President was probably right in not talking a lot about it 
publicly, because he certainly did not want to flag all of that 
to our enemy even before we got started. But the fact of the 
matter is, in my own mind, I knew that we were going to pull 
forces back in 2008 regardless, regardless of whether we 
succeeded or regardless of whether it did not work.
    Now I believe it is working, and what I would imagine would 
happen--and I do not want to prejudge what General Odierno and 
Petraeus are going to do, but in my own mind--and that is what 
you asked for--I think for sure--in 2008 we will see ourselves 
going back to pre-surge levels. In other words, coming down 
from 20-plus brigades to 15 brigades and, based on continued 
success and continued security, maybe even further in 2008, and 
then continue that movement in 2009, if that situation 
continues as we think it will, and that is with continued 
security and a stable process.
    I know for a fact right now there are places in Iraq where 
we could transition with the Iraqi security forces based on 
their capacity to do it by themselves. So I think what you 
should do, in my view, is leave it up to Odierno and Petraeus 
to decide what the timing of this would be, sometime in 2008, 
where it is going to take place based on two things, enemy 
situation in a particular area and capacity of Iraqi security 
forces. Let them make that judgment.
    This is in a public arena. I think I know how that would be 
done, but I would rather not say it here because it impacts on 
how the enemy would react to us. But, nonetheless, those forces 
would be reduced in 2008 based on the positive trends that we 
would have, and there is no reason to think that that could not 
continue, and let the tools stay in the hands of the commanders 
to do that deliberately, very methodically based on those two 
variables, the enemy and the capacity for the Iraqis to take 
over.
    The Chairman. I thank the gentleman.
    Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much.
    Mr. Chairman, the staff has passed out an amendment in the 
nature of a substitute to 3087. I would like to concentrate on 
that if I might because I am hoping that our guests would have 
an opportunity to take a look at that. I think that it may 
answer some of the observations that have been made and most 
particularly for Mr. Hunter because I want to tell you more 
about the motivation for this than the substance of it at this 
particular time.
    The argument that goes back and forth is, ``Well, you do 
not support the troops,'' or ``You are not trying to end the 
war fast enough,'' that kind of thing. And so what we tried to 
do--and I say we, this is a product of several people on both 
sides of the aisle--is to get beyond that so that the President 
is not in the situation of accusing the Congress of 
micromanaging. And we want most particularly to make sure that 
we do not end up making policy by default in the appropriations 
bill.
    I am sure Mr. Hunter would agree with Mr. Skelton, both 
having been chairs, that it is crucial for the well-being of 
the Nation that we not end up making policy by default and in 
appropriations bills and that this is particularly the 
committee that should be doing that.
    What we are saying is, ``It is necessary and prudent for 
the Department of Defense to undertake robust and comprehensive 
contingency planning.''
    By coincidence of events, Secretary Gates has sent a 
letter, because of circumstances taking place in the Senate, 
exactly the kind of argument that I am talking about where you 
get into accusations back and forth that undermine everything, 
where he says--and I am quoting from The Post today--that he is 
``personally engaged in developing contingency plans'' and 
emphasized efforts that constitute ``a priority for the 
Pentagon.''
    And again, quoting Secretary Gates, ``Such planning is, 
indeed, taking place with my active involvement as well as that 
of senior military and civilian officials and our commanders in 
the field,'' as General Keane and others and Secretary Korb 
have pointed out as being essential.
    My point here is that this bill 3087 was developed 
independent of all that because of the recognition that we have 
in Section 2 there that ``contingency planning for redeployment 
of the Armed Forces should address''--and then I think it deals 
with virtually everything that Mr. Hunter has articulated and 
dealt with everything that both Mr. Korb and General Keane have 
articulated and for good reason, not because we are 
particularly perceptive, but we are trying to use the common 
sense and perception that we have as members of this committee 
and concerned individuals.
    So what I am asking here, Mr. Chairman, and asking the 
witnesses if they can take a look at it. I realize you are here 
on short notice to begin with, let alone having to look at the 
substitute.
    But our point here is stated completely, I think, and 
succinctly, in what we are asking the President to do, is that 
he present not later than 60 days--and what we are taking into 
account here is the recess that the Congress will be in and the 
presentation of the report by General Petraeus--then submit to 
the congressional defense committees the status of planning for 
the redeployment of the Armed Forces from Iraq, exactly the 
kind of contingency planning that sensible people in the 
Pentagon are doing anyway at the direction of the President, I 
am sure, and that we then have that before us so we can 
contemplate how to be helpful in bringing this to a conclusion.
    So what I am asking you both to do is in the light of the 
substitute that is here, that is before us now, and in the 
light of the contingency planning protocols ensuring 
``appropriate protection of our Armed Forces, appropriate 
protection of contractors, Iraqi nationals,'' et cetera, 
``maintaining and enhancing the ability of the government to 
eliminate and disrupt al Qaeda,'' et cetera, could you find 
that 3087 was useful?
    General Keane. In my judgment, the answer to that is no. 
And the reason is that, one, the Pentagon has already told you 
that they are conducting contingency planning dealing with a 
whole range of scenarios, and, two, I mean, certainly, you do 
not have the right legislation to ask them to share some of 
their thoughts with you.
    The third thing is you are dictating missions, and that is 
what this is when you say ``conduct the United States military 
operations, protect vital interests, conduct counterterrorism 
operations, protect the American forces,'' et cetera, et 
cetera, and what you are also doing in that is leaving out 
missions. And I think that should be left to the province of 
the commanders in terms of what they are doing.
    And just let me say here that there is a thought--and I 
think it is probably the most prevalent thought--among the 
options that people consider, is that all we need to do is pull 
back from the active and aggressive activity that we are 
currently conducting and train the Iraqi security forces, focus 
on the al Qaeda, therefore counterterrorism, and protect 
ourselves.
    Well, that was the failed strategy that we have been doing 
for three years. That is the problem that is with that. That 
will get us a worsening situation. We would like to do that if 
we could be successful at it, but we are painfully aware that 
we failed at it, and there is no panacea there. It will get us 
a worse situation.
    Second, we cannot dissect these activities by saying focus 
on the al Qaeda and kid ourselves that we would have forces who 
would only be able to focus on the al Qaeda. That is not 
possible. The al Qaeda is supported by a Sunni infrastructure 
and by Sunni insurgents, and the al Qaeda preys on Shias, and 
as a result of that, at times, they are going to respond.
    So, by definition, you cannot just isolate the al Qaeda. We 
are kidding ourselves by suggesting that. It gives us comfort 
to say, of course, we will focus on the al Qaeda because the al 
Qaeda is a threat worldwide, and defeating the al Qaeda is in 
our Nation's interest, as we are aware of, post 9/11.
    But it is not that simple militarily in the application of 
force, is what I am suggesting to you, and that is why you 
cannot legislation these missions from here. These are tactical 
missions that you are providing here, and you have to leave 
this up to the commanders to make this kind of judgment, in my 
view.
    Thank you.
    Mr. Korb. I think it is rather interesting that we have now 
admitted that the strategy failed for three years. I never 
heard that, okay. I never heard that from people in the 
Pentagon, people in the field, a lot of the commentators who 
supported war. I never heard that, and all a sudden now, we are 
saying, ``Well, this strategy failed. Therefore, we have to do 
the other one.''
    Your amendment should be adopted for the following reason: 
This Administration never did a cost-benefit analysis of going 
into Iraq, and because of that, we are in the mess that we are 
in now. And I think it is important that you get them to do 
what they should be doing.
    And, again, your amendment says, ``Tell us what you are 
doing,'' and if General Keane is right with some of these 
reasons, then you will know about it.
    But it is incredible to me that we could go to war without 
doing a cost-benefit analysis. So I think it is important to 
get them to do it now.
    Mr. Abercrombie. Thank you.
    The Chairman. Mr. McHugh.
    Mr. McHugh. Mr. Korb, where can I get the cost-benefit 
analysis of World War II? I would like to read that.
    Mr. Korb. Well, I would be happy to talk to you about that 
because World War II was----
    Mr. McHugh. Just all I need to know is where the cost-
benefit analysis was done for World War II prior to our going 
to war. I would like to read it. You said you cannot believe we 
have not done it.
    Mr. Korb. You do not do that for a war of necessity. You do 
do it for a war of choice.
    Mr. McHugh. Thank you, Mr. Korb.
    General, let us get down to the basics of this resolution, 
this piece of legislation before us. Simple question: Can we 
continue the fight in Iraq without waiver if this piece of 
legislation is passed?
    General Keane. No. In my judgment, not. You tie the hands 
of the commanders, and it results in reduction in forces.
    Mr. McHugh. Mr. Korb, do you agree with that?
    Mr. Korb. No, because you give the President a waiver.
    Mr. McHugh. That is what I said. Can we fight it without 
waiver?
    Mr. Korb. Well, no, that is the reason. The President then 
has----
    Mr. McHugh. No is the answer. No is the answer. It is a 
simple answer. Yes or no.
    Mr. Korb. Well----
    Mr. McHugh. Thank you, Mr. Korb.
    General Keane, have you done any analysis or had the 
opportunity? And I know, as Mr. Abercrombie said, you have not 
had a lot of chance to look at this. How many brigade combat 
teams, how many units, whatever the measurement would have to 
be, would be taken off the board for deployability were this to 
be passed?
    General Keane. No, I would not be able to answer that, you 
know, at this session without doing some more analysis.
    Mr. McHugh. Mr. Korb, could you answer that question, do 
you think?
    Mr. Korb. What question?
    Mr. McHugh. Well, did you do an analysis of this bill to 
understand how many forces would become unavailable were the 
bill to pass?
    Mr. Korb. Well, I think that is what you want to have the 
plan, to find out how many you would need to do these things. 
That is why you want the planning to be done, and then you take 
a look at it and see if it makes sense. But it is important to 
know, in fact, what is going on and what people are thinking. 
We do not want to be caught short again like we were when we 
planned this invasion and assumed we would be down to 30,000 
troops by the end of 2003.
    Mr. McHugh. You made the comment, Mr. Korb, that it was 
your opinion--and I can understand why you might have it--that 
we simply with a volunteer force cannot field the kind of long 
war army that is necessary. I think the phrase you said was we 
need to be honest with ourselves in contemplation of re-
imposing the draft.
    As I recall, the Reagan Administration had an all-volunteer 
Army. When you left that Administration, how many divisions 
were in the United States Army?
    Mr. Korb. I think there were 16 divisions.
    Mr. McHugh. And there were 18 at their peak under the all-
volunteer Army. So we voluntarily have come down to 10. Do you 
think you could have fought a long-term war under the 
leadership of Ronald Reagan with 16 to 18 divisions?
    Mr. Korb. No, we did not intend to, which is why President 
Reagan kept draft registration, because the idea was----
    Mr. McHugh. Which we still have today, sir. So that is not 
really the issue.
    Mr. Korb. That is why we kept it.
    Mr. McHugh. Congratulations. Every Administration since has 
kept it as well. I do not think that is really the point.
    Mr. Korb. No, it is----
    The Chairman. Let the gentleman answer the question.
    Mr. McHugh. Well, it is my time, Mr. Chairman, and the 
gentleman is very good at eating up other people's times. I 
would like to go to another question with General Keane. He has 
answered the question to my satisfaction.
    General, do you think under the leadership of President 
Reagan we could have with 18 divisions fought a long war, even 
an Iraqi war?
    General Keane. Yes, absolutely. Essentially, the Cold War 
posture of the Army that had that kind of force structure--
volunteers, I may add--would definitely be possible to make a 
commitment of around numbers of 150,000 and then, most 
importantly, be able to maintain a reserve of active-duty 
divisions that are not engaged in the war.
    You could probably be able to sequester about four or five 
of them that would always be dealing with the possibility of 
another contingency someplace in the world, and you would 
rotate who they were so there would be obviously burden sharing 
with the war that you are currently fighting.
    I mean, the stress and strain that we have is driven by the 
inadequate size of the active forces fundamentally and the 
disproportionate reliance we have on the Guard and Reserves.
    Mr. McHugh. Mr. Korb, tell me. Who is the president for the 
Center of American Progress, that organization you are 
associated with here today?
    Mr. Korb. His name is John Podesta.
    Mr. McHugh. Thank you, sir. I do appreciate it.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    Dr. Snyder, please.
    Dr. Snyder. Thank you, gentlemen, for being here. We 
appreciate your opinions and exchanges.
    And, General Keane, we are looking forward to you being at 
our O and I (Oversight and Investigations) Subcommittee next 
week and to your contributions to your country continuing.
    Mr. Hunter, I need a Vietnam infantry guy with legal 
experience that knows something about defense policy to answer 
my question, but I would like to just have a minute or two 
discussion with you about what you said during the opening 
statement.
    You used the language that--I am talking about Mr. 
Skelton's bill now--it is putting units on the shelf, your 
word, and paralyzed the military. Tell me why you do not think 
that the language with the waiver takes care of it.
    When we did this bill or did a bill several months ago, you 
were absolutely right about the way it was drafted. The way it 
was drafted, you know, they would have to sit for 30 days if 
their readiness levels were good. I mean, I thought it was 
poorly drafted, but I think the staff learned from you and Mr. 
Skelton and has responded to that.
    Why does this cause any kind of limitation? The way I read 
it, the President can say, you know, I mean, these forces are 
going. Somebody sends a note. The President says, ``Hey, they 
are in the planes. They are on their way.'' But the next three 
days, you just need to certify--and we are putting you on 
notice, Mr. President--these folks are going back sooner than 
our original plan was.
    Why does this language paralyze the forces, or why do you 
think units are on the shelf the way that it is written?
    Mr. Hunter. Sure. Thanks for asking the question.
    I think the Marines have said it best in this memo that 
they sent back to us. They said, ``In order to support OIF 
requirements during fiscal year 2008 and comply with the 
minimum period between deployments proposed by the Skelton 
substitute, a 1:1 ratio, the Marines would have to adjust force 
generation plans. These plan adjustments could include 
extending unit deployments, creating provisional units and 
forcing units to execute missions as''----
    Dr. Snyder. If I want to reclaim my----
    Mr. Hunter [continuing]. ``In lieu of forces''----
    Dr. Snyder. But----
    Mr. Hunter. But let me shorthand that, though, so I can 
finish my statement here.
    Dr. Snyder. Well, now let me reclaim my time because I 
understand all that. If there was no waiver, I would vote 
against it.
    Mr. Hunter. Yes. So here is the problem. You have----
    Dr. Snyder. All the Marine Corps has to do is go say to the 
President, ``We sent these units or we had to send them within 
six months, not seven months. Sometime in the next 30 days, we 
need you to just waive these for us.'' But that takes care of 
that problem.
    Mr. Hunter. Yes, as I read this thing, it is waivers down 
to a unit that is commanded by a major. That is a small unit. 
So, in theory, we could micromanage every personnel policy in 
the military as long as we included a Presidential waiver. Now 
you know how long it takes for us to get a reprogramming on a 
vital piece of equipment that simply requires four signatures.
    Dr. Snyder. Reclaiming my time, we all had a very vigorous 
discussion this morning about----
    Mr. Hunter. But, first, Victor, there is a substantive 
reason here.
    Dr. Snyder. Reclaiming my time, please, we had a very 
vigorous discussion about the surge, whether it is working or 
not working. To me, I do not see that this legislation has 
anything to do with that.
    The President could have, when he announced the surge, 
said, ``I recognize this is going to be a burden on our troops. 
We are going to have to go back perhaps longer, and because of 
that, I want you to know that I am going to get a notification 
any time a unit is going to go longer than our original plan of 
having to stay home for this length of time, and my staff and I 
will personally, you know, sign off on that.''
    I do not see that this does anything more than give 
reassurances to military families and folks that they are being 
looked at, that they are being recognized that they are having 
to stay longer than what you originally cited, General Keane. I 
just do not see that the waiver interferes with it.
    I am one of those Democrats, by the way, that voted against 
the bill a couple of weeks ago, because I thought that we had 
given assurances we would wait until mid-September, but I do 
not see that this does all the dire things of paralyzing units 
and putting units on a shelf.
    To me, it is no different, Mr. Hunter, than every 30 days 
we sign off on our employees that this is the payroll. Well, 
there may not have been any changes for the preceding several 
months, but it is a reminder to us that, yes, we are certifying 
that that is where they are at.
    Mr. Hunter. Will the gentleman yield for just a second?
    Dr. Snyder. Yes, sir.
    Mr. Hunter. Yes, I think taking this thing down to any unit 
that is commanded by a major, that amounts to us micromanaging. 
I mean, Vic, that means that you are going to have units that 
have specialties. One aspect of this war and any war is the 
unevenness of requirements of personnel. You are going to have 
the President doing nothing but signing off waivers for units 
right down to those commanded by a major?
    Ms. Tauscher. If the gentleman will yield----
    Mr. Hunter. That is a small unit.
    Ms. Tauscher. If the gentleman will yield, it is my bill, 
and I can perhaps answer this question. Will you yield?
    Dr. Snyder. I have no time.
    The Chairman. Take the time. Take the time.
    Ms. Tauscher. Thank you.
    The Chairman. We will give you 30 seconds.
    Ms. Tauscher. I think that the real issue here is the 
question of: Are we going to argue continuously about the 
surge, or are we going to argue about the legislation before 
us?
    Now, if you are going to argue about the surge, you can 
find all kinds of reasons and excuses to be for it or against 
it, but the bill 3159 that Mr. Snyder was just talking about is 
a bill that effectively does what the Congress is meant to do 
by our constitutional prerogative.
    And part of it is to make sure that when we have forces in 
our military, that they are taken care of and that they have 
the well-time necessary to be sure that they can perform the 
duties for the American people, not only for the engagement 
that they may be in, but for future engagements and other 
contingencies that are surprising.
    The bill does not require captains and lieutenants to ask 
for waivers. It can go all the way up to the brigade level. It 
can go even up to the division level. So that is the essence of 
what the bill does. So it is not requiring lower-level military 
to ask for waivers.
    The Chairman. I thank the gentlelady.
    Mr. Hunter wishes 30 seconds.
    Mr. Hunter. Yes. Just one point: The combatant commanders 
give us the requirement for the mix of forces that are needed 
and the rotation of forces that are needed. So if we get to the 
point where the President has to give a personal waiver every 
time you come to a unit that is major or above, I think you are 
getting way down in the weeds. And you are forcing the 
President to spend a ton of time overturning what are going to 
be recommendations that he is obviously going to accept from 
the field.
    There is probably going to be no recommendation from the 
field on a force mix that the President does not agree with. So 
what we are doing is basically micromanaging and forcing him to 
undertake this analysis every time you have a unit that is 
commanded by a major or above.
    Ms. Tauscher. Will the gentleman yield?
    Mr. Hunter. It does not make sense.
    Ms. Tauscher. If our military is too small to do the 
military mission, then that is the cost of doing business, with 
all due respect.
    The Chairman. We are going to have to cut this short and--
--
    Mr. Hunter. Let me just say to the gentlelady that is why 
we recommended that we go much higher and have done it for 
several years.
    The Chairman. We are going to have to cut this short.
    Mr. Bartlett.
    Ms. Tauscher. I know. I carried that bill, too.
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Thank you for your testimony.
    Both of you are very familiar with our Constitution. 
Article I, Section 8 says that the Congress will make rules for 
the government and regulation of the land and naval forces. And 
Article II, Section 2 says the President shall be the Commander 
in Chief. What we are talking about in 3087? Is that an Article 
I, Section 8 issue, or is that an Article II, Section 2 issue?
    General Keane and then Mr. Korb.
    General Keane. Well, in my judgment, the requirement for 
the level of forces and the amount of time that they are going 
to spend in a combat situation, is really the issue, and that 
is the province of the Commander in Chief and his commanders.
    And when you nibble around the edges of that by playing 
with dwell time because of the perceived stress and strain on 
the force, and that becomes your preoccupation, dwell time, 
then you are denying the commanders and the Commander in Chief, 
even though there is a waiver--I understand that--the full use 
of the forces for the time that they believe is necessary and 
the inherent flexibility that they need to prosecute the war.
    You are putting the emphasis on back home here in the 
United States, in my view, as opposed to where it needs to be, 
is prosecuting the war. If you are going to do the war, then 
let us try to do it to the best of our ability. We have made--
--
    Mr. Bartlett. So you then----
    General Keane. We have made enough mistakes with this thing 
as it is.
    Mr. Bartlett. So you think it is an Article II, Section 2.
    Mr. Korb.
    Mr. Korb. No, I think it is Article I, and, in fact, if we 
take General Keane's position, you should not have prevented 
people during the war in Korea from going into battle with less 
than four months of training. So Congress has that power.
    And I think it is important to keep in mind Article I comes 
before Article II when you are looking at the Constitution, and 
I can go back and give you a whole host of times where the 
Congress has had to step in when the policies of the 
Administration were actually not only strategically unsound, 
but morally unsound.
    Mr. Bartlett. If you would look at H.R. 3087, in the 
findings, it asserts there that the law that we passed on 
October 16, 2002, authorized ``the President to use the Armed 
Forces as the President deemed necessary and appropriate in 
order to defend the national security of the United States 
against the continuing threat posed by the government of Iraq'' 
at that time. Do you think that that is a fair summary of the 
law that we passed?
    Mr. Korb. I believe it is, and I think that those 
conditions no longer apply. You overthrew the government of 
Saddam Hussein, and the weapons of mass destruction are found 
not to be there.
    Mr. Bartlett. General Keane, do you agree that that was the 
sense of the law that we passed in 2002?
    General Keane. I think so, and, certainly, I agree with 
Larry the conditions have dramatically changed.
    Mr. Bartlett. Well, if that was the law that we passed in 
2002 and if you agree with the second finding, and that is that 
Iraq no longer poses a threat, that government is gone, the 
leader is now tried and executed, would one then conclude that 
the President has no congressional authority? Because we are 
the ones who commit the troops to war, that we need to now 
determine whether or not the troops are going to be used in an 
additional capacity? They have done what we authorized the 
President to use them to do. Is that not true?
    General Keane. Well, the problem we had--and a number of us 
who were in uniform at the time, you know, bear some 
responsibility here--when we looked at conducting the invasion 
certainly, the military leaders--we did not anticipate that one 
of the options the regime had was not to surrender and----
    Mr. Bartlett. General, excuse me. My time is limited. I 
understand that.
    General Keane [continuing]. To continue to fight us. That 
is----
    Mr. Bartlett. The only point I am making is do you not 
think it is----
    General Keane. That is the basis for the struggle.
    Mr. Bartlett. Do you now think it is appropriate for the 
Congress to now take a new look at what we are doing there 
because what we authorized the Administration to do has been 
done, they did it very successfully? Isn't it appropriate that 
we take a new look at that? Don't you think this dialogue will 
benefit the American people?
    General Keane. Dialogue about something as serious as war 
always benefits the American people, to educate and to inform. 
I believe that law certainly covers the fact that the Sunni 
insurgency was the basis for the insurgency aided by the al 
Qaeda. It was the former regime elements that began it, and 
that is who we are fighting.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. General, earlier--I wish I could phrase it 
exactly--you said that Congress must fight its demons and not 
adopt this policy. We do not fight demons, General. We try to 
legislate. That is the purpose of our hearing. That is the 
purpose of excellent witnesses, such as you and Mr. Korb. I 
hope that that was said more in a moment of passion, rather 
than reflection, General.
    General Keane. It is rich language, Mr. Congressman. I 
understand that, I know that, but it was made not so much with 
this piece of legislation, but in a general comment to some of 
the things that have been happening up here, to be frank about 
it, and I fight my own demons, Mr. Congressman, and I do think 
we are fighting our demons and we are dealing with our fears 
here, and we are dealing with our frustration and also with our 
anger, and so I think the comment is appropriate.
    The Chairman. We are dealing with legislation.
    Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    I am proud to offer H.R. 3159, which is the bill to mandate 
minimum periods of rest and recuperation for units and members 
of the regular and reserve components of our Armed Forces 
between deployments.
    You know, I think that part of our responsibility here in 
Congress is not only to speak for the American people and be 
congruent with the Constitution, but to also understand, when 
there are very complicated issues, there are times when we have 
to use the legislative abilities that we have to clarify things 
for people.
    There were many of us that, for many years since the 2002 
invasion of Iraq, that wanted to increase the size of the 
active-duty forces and were completely thwarted by General 
Schoomaker. Certainly, Secretary of Defense Rumsfeld basically 
laughed at us, told us we were out of our minds, we did not 
really need any more forces.
    This is when they had that momentary burst of enthusiasm 
where they thought we were going to go down to 30,000 troops 
before they understood what President Bush the first 
understood, which was decapitating the government in Baghdad 
was going to cause all kinds of problems.
    I think our bill is responsive to the American people, not 
only because of their significant turn-away from the Iraq war, 
but because they love our military. They deeply love our 
military. They understand their sacrifice, they understand what 
their families are going through, and their turn-away from the 
Iraq war is for many reasons.
    Some of them were against the preemptive strike. Some of 
them were against war to begin with. Some of them over time 
increasingly are against it, and it is partly because we are 
using too much of their money and losing too many fine 
Americans over there for what they consider to be a civil war 
that cannot be won militarily, but also because they live in 
communities where our military live, and they see the strain on 
the families for no dwell time at home.
    Now there is nothing about the bill that I propose that 
would cause the President 30 seconds of paperwork to continue 
military operations going forward. We can continue to distract 
each other absolutely out of our minds that this is about the 
surge, which I do not support, or even about the Iraq war. It 
is not.
    The Congress has the duty, constitutional responsibility 
and the moral authority to speak for the American people. The 
American people are heartbroken that these military families 
see moms and dads coming home for five, six, seven months only 
to be turned around on a dime and sent back, knowing full well 
that they are not ready, they are not rested and they are not 
well-equipped. This is the point of this bill.
    Now my colleagues can choose to find one more fig tree with 
one more fig leaf on it and decide that to pass, maybe a sense 
of Congress that wouldn't it be nice if we can do this, but 
this is the time, ladies and gentlemen, for us to take our 
spine-stiffening medication and stand up and do the right 
thing.
    Now, General Keane, I honor your service, but, frankly, 
back in 2005, you were very optimistic, like you are right now, 
about training the Iraqi forces, ``Although a civil war would 
be a tragedy with immense costs, it would be at least a force 
of definitive outcome to the ongoing struggle in Iraq, but 
there are no signs of this happening at the time.''
    With all due respect, sir, you were wrong then and you are 
wrong now. This is a bill we have to pass, and I hope my 
colleagues will indulge me. I do not have any questions. I 
think the answer is in the two bills that we are proposing 
today, and I hope my colleagues will support them.
    The Chairman. I thank the gentlelady.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And, Dr. Korb and General Keane, I am going to read a 
couple of statements, and then I am going to have a question.
    From the April 7, 2007, National Journal article for the 
Army Code Yellow, this is Barry McCaffrey, General McCaffrey, 
because I think all in this House and all in this committee 
probably have great respect for, as we do you, by the way.
    ``Despite all of those gimmicks, young battalion commanders 
tell me that recruiting standards have slipped terribly due to 
waivers. Drug and alcohol abuse have increased dramatically. 
The word has come down not to flunk anyone out of basic 
training, and we will increase the age limit to allow 42-year-
old grandmothers to enlist in the Army.'' This is Barry 
McCaffrey now, not Walter Jones.
    He further stated, ``My bottom line is that the Army is 
unraveling, and if we do not expend significant national energy 
to reverse that trend, sometime in the next two years, we will 
break the Army just like we did during Vietnam. Only this time 
we will not have 10 years to fix it again. There will be no 
time-out from the global war on terror or threats like North 
Korea, Iran, and Venezuela, you name it.''
    That is Barry McCaffrey. That is Barry McCaffrey.
    From that article ``Code Yellow,'' the Pentagon Health 
Study released in January 2007, ``the rate of binge drinking in 
the Army ballooned by 30 percent between 2002 and 2005, and the 
increase in illicit drug use nearly doubled between 1998 and 
2005.'' That sounds like to me there is a problem somewhere, 
okay.
    Further--then I will close with a question--about March, 
April of this year, the President felt that he needed a war 
czar. I think we have a great Secretary of Defense, but, 
anyway, if he felt this, I respect what he felt he needed.
    I do not know General John Jack Sheehan, but, like you--
General Keane, I have a lot of respect for you--I have a lot of 
respect for him. But I do not know him--35 years Marine 
service. This was his quote in The Washington Post when he 
turned down the opportunity to be war czar. I am not going to 
read the whole quote, but just his last sentence: ``The very 
fundamental issue is they do not know where the hell they are 
going.''
    This is a Marine general, like you General Keane, a hero, 
you both. That is why Mrs. Tauscher, that is why Chairman 
Skelton, that is why this Congress, which has a constitutional 
responsibility to fund the military, also has a constitutional 
responsibility to debate the policy for the military. Whether 
that is good or bad, it does not matter. That is what we are 
required to do.
    The fact is what General Sheehan said is why this Congress 
is trying to somehow be involved, as it should be involved.
    And now I get to the question, and, Dr. Korb, I will start 
with you first after this rambling I have done. I am not going 
to read anything from this, but in May of this year, in the 
Raleigh, North Carolina, paper, the front page, ``Deployed 
Depleted Desperate.''
    I go to church with a family psychiatrist that works at 
Fort Bragg. He has asked me to please this August come visit 
with him and some families. Now I know this is one man, but he 
is doing something every day I am not doing, so I have to trust 
him. He wants me to hear the families because they are 
desperate, the families are depleted, and that is why it is 
important to have this debate, whether you vote for these bills 
or not.
    We have not for five years, until this other party became 
the majority, had these debates. Would you answer me if you 
can, fairly quickly, because my time is going to expire? I 
guess they can finish the question. Would you respond to the 
things I read and maybe said?
    Mr. Korb. Well, I know Jack Sheehan. I worked with him when 
he was the military assistant to Frank Carlucci, and I kept in 
touch with him when he was one of our combatant commanders. And 
I think he sums it up quite correctly, that, in fact, the 
Administration does not have an overall plan for what they are 
doing, and it is----
    The Chairman. Finish your answer.
    Mr. Korb. Okay. And I agree with the people there, with 
General McCaffrey that things are getting progressively worse. 
They were bad in 2006, their recruiting in 2007 is bad, and you 
have had the lowest retention rate among your West Point 
people--those are your future leaders--after their first tour, 
lower than it has been in 30 years.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Does General Keane have an answer to that?
    General Keane. No, I am not going to dispute General 
McCaffrey. He is welcome to his opinion. I just do not think it 
is anywhere near the degree of gravity that people are 
suggesting it is. There are some of those challenges, to be 
sure. It certainly is not affecting the performance of the 
force, is the way you have to judge it, and it is not affecting 
the overwhelming majority of the people who want to stay in it.
    There are some recruiting challenges. I think the Army will 
probably miss their recruiting objective this year. They are 
trying to recruit a much larger force with the authorized 
increase that the President has given them. And I think there 
will be some challenges there but, overall, I think they will 
continue to make progress with that.
    And, yes, the force is under stress and strain of being too 
small a force, fighting a war as long as we are fighting it. 
That is the reality of it. I do not dispute that. I think it is 
under stress and strain. But it is performing to a very high 
degree, and I do not see any indication that it will break in 
the next year or two--and that statement was made some time 
ago--and I think it will continue to perform at a very high 
degree.
    The Chairman. Thank you so much.
    Ms. Davis please.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you all, both of you, for being here.
    It is really interesting because I think that our 
discussion today has gotten around to the role of the Congress. 
And I wonder if you could share with me, from the resolution 
initially proposed to go into Iraq until today, what your 
perceptions are of the Congress, and the way that role has been 
taken on?
    And I know this is a big question, but if you can just be 
brief about that. You know, are there times when you have seen 
that that oversight has really not been present and does that 
in any way really inform the discussion that we are having 
today?
    General Keane. Well, I was here in uniform for most of 
that. And I have provided testimony before this committee many 
times, not on how the war was going, but, certainly, you know, 
how the Army was doing in support of it. And I believe this 
committee, as well as your counterparts in the Senate, have 
been very involved right from the beginning and have been 
concerned and tried to do things that should have been done, 
which I respected.
    And that was make sure our readiness was right, make sure 
the size of the force was correct to meet the expanding 
obligations that the United States has in the 21st century. And 
I have agreed with those efforts that you have made here, and I 
applaud you for them, and I have always respected your 
commitment to do these as well.
    The law that was passed to support our efforts in Iraq, I 
certainly agree with. I thought it would have probably been 
better to wait a little while, while we were focused on the al 
Qaeda initially, but we are where we are and everybody has 
their opinion on it. But the fact of the matter is, that this 
body and the Senate has, I think, exercised appropriate 
oversight, and I think you should continue to do it.
    Mrs. Davis of California. Mr. Korb, did you want to 
respond?
    Mr. Korb. I think the problem was that the government was 
controlled by one party, the Republican Party, and I think, 
because of that, the Congress was not able to provide some of 
the oversight that many members wanted.
    I go back to when Senator Levin asked General Shinseki how 
many troops we would need to secure Iraq after the fall of 
Saddam Hussein, and he gave the number of several hundred 
thousand. He was denounced for that by the Deputy Secretary of 
Defense, and I think because the Congress was controlled by the 
same party, you did not, you know, follow up on that.
    And I think it is very helpful for our democracy, now that 
Congress is beginning to play the role and ask the hard 
questions. And with the efforts of some of the bills here--
Congressman Tanner, Congressman Abercrombie, Congresswoman 
Tauscher, Chairman Skelton--to begin to try and get this back 
under control as the Congress did--and people forget this--in 
1951, insisted, because we were rushing people into war without 
adequate training, saying, ``No, you have to have four months 
of training before you go into combat.'' And I think that was 
important, and, in fact, my understanding is that law still 
exists today, that, you know, people must have that.
    Mrs. Davis of California. Can I ask you both, would it be 
appropriate for the Congress to be taking a much closer look at 
the relationship between military and civilian leadership at 
this time, and do you think that there were problems with it? 
Just a yes or no, because I have one or two other questions. 
Quickly.
    General Keane. I do not have any problem with that in time 
of war, when the stakes are so high, and we are losing lives, 
and the interest of the United States is so accented.
    Mr. Chairman, I have to excuse myself. I agreed I had to 
leave at 11:30, and it is past that, and I----
    The Chairman. General Keane, we understand that. As a 
matter of fact, we have four votes coming up at 11:30 a.m. 
ourselves. So we will excuse you.
    Mr. Korb, if you could stay until 11:30 a.m.?
    Thank you very much for coming and for your testifying 
today.
    Mrs. Davis of California. I look forward to future 
discussions, General, with the oversight.
    The Chairman. Thank you, sir.
    Mrs. Davis of California. Mr. Korb, did you want to respond 
to that in terms of----
    Mr. Korb. Well, no, I certainly think this is the oversight 
role, to look at the relationship between civilians and 
military, and make sure that the military people can be 
completely forthright with you without suffering any type of 
retribution if they disagree with the Administration policy. 
Because remember that the Congress has the power to raise 
armies and maintain navies and declare war, and the Congress 
back during the war in Vietnam insisted that the chiefs of 
service get a four-year tour. So they can be completely honest 
with you, and I think that is really what you need.
    Mrs. Davis of California. Thank you. Thank you, Mr. Korb.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    Well, I regret very much Mr. Keane had to leave.
    First of all, I want to begin by honestly thanking both of 
you for your testimony. I think it has been some of the most 
passionate and some of the most interesting, and even though 
there is a great deal of disagreement, obviously, between the 
two positions represented, it has been enlightening. And it has 
been a good exchange and a helpful exchange.
    I do want to take a moment of personal privilege just to 
disagree with you somewhat on your statement about a Republican 
Congress and Republican President, because if I followed that 
logic, I would say Korea did not work out well because we had a 
Democratic Congress and a Democratic President, or Vietnam did 
not work out well because we had a Democratic Congress and a 
Democratic President, or maybe World War II was not fought well 
because we had a Democratic Congress, a Democratic President.
    I think the criticism is legitimate, if you want to say 
Congress did not do oversight. I think if you are going to draw 
that kind of partisan line, then you might as well draw it 
through all of American history. I do not think it is 
particularly helpful, but that is my view.
    Let me ask you a question that I really wanted to put to 
both of you because you would have very different answers, and 
I really wanted to continue to hear this.
    But I think the key issue here is not really the question 
of just what is happening militarily. I have a lot of 
confidence in our forces, and I do believe you both made the 
point about them being under strain, but I think they function 
well, I think they can do their mission, and I think they will.
    But I will make the same point frankly to you that I have 
made in other contexts to the President, which is this really 
gets down to what the Iraqis can do at the end of the day. Our 
people will do their part of the mission, in my opinion. 
Whether Iraqi politicians are up to their part of the mission, 
I think is a very legitimate question.
    And so I want to give you the opportunity, which I would 
have liked to give to Mr. Keane too, unfortunately, to respond 
to that.
    Mr. Korb. Thank you very much.
    I did not mean to imply it was just partisan, and that was 
my opinion, because it took a while in Vietnam, for example, 
for the Congress, even though it was controlled by both 
parties, to----
    Mr. Cole. It was only controlled by one party.
    Mr. Korb. Yes, that is what I mean. Well, controlled by one 
party. And I made that in my testimony.
    The problem is the Iraqi government. And that is why I 
think the surge assumed that if you got the violence somewhat 
under control--and I do not agree. I mean, the number of 
attacks in June was 178 a day, so I do not think it is as under 
control as some people claim.
    But it is the government. I was over there in April, sent 
over as part of a group from the National Academy of Public 
Administration to assess the capacity. I do not believe that 
they have the desire to do it because they are tough things to 
do. They are not willing to make these hard choices.
    Mr. Cole. Can I follow up and get your opinion then on 
another issue related to that?
    Accepting that viewpoint, what happens then afterwards? We 
all agree the numbers are going to come down. We all agree at 
some point the mission will end, Americans will come home. What 
do you see looking forward as far as you can in a very 
difficult situation?
    Mr. Korb. Well, I think it depends on how you leave, when 
you leave, but until the Iraqis make these painful political 
compromises, no matter how long you say, there are going to be 
problems in the region. I do think if you set a date, if you 
work with the countries in the region, that gives you your best 
hope of making sure that whatever happens there does not 
undermine our national security.
    Mr. Cole. Let us assume the worst. Let us assume that we do 
essentially leave, reduce our presence very dramatically, and 
they do not make the right decisions. What are the consequences 
for our country, not just for the region, but how would you see 
that?
    Mr. Korb. Well, we have two vital interests there. One is 
to ensure that Iraq does not become a launching pad for 
international terrorism, and the other is that whatever happens 
there does not spread throughout the region. Those are our 
interests.
    We have urged since 2005 to redeploy our forces out of 
Iraq, leave them in the region, which I think can prevent those 
things from happening, and the other is the countries in the 
region do not want to see that. I mean, even Iran does not want 
to see Iraq become a launching pad for a group like al Qaeda 
because that is a Sunni-dominated group, and they are Shias.
    So I think that is our best hope to try and get this 
situation under control.
    Mr. Cole. Couldn't al Qaeda continue to play off the 
division between Sunni and Shia? Couldn't the Sunni countries 
be drawn into the region out of fear of Iraq?
    Mr. Korb. Well, I think they----
    Mr. Cole. Excuse me. Iran.
    Mr. Korb. Yes. I think they could be, and that is why you 
have to work with all of the countries in the region. I am also 
convinced that the Iraqi people do not support the foreign 
members of al Qaeda, and I think that once it is clear we are 
not there, the Iraqis themselves will deal with these 
foreigners.
    Mr. Cole. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Cole.
    Mrs. Boyda.
    Mrs. Boyda. Thank you, Mr. Chairman.
    I was certainly hoping that General Keane would be able to 
be here as well.
    Let me just say thank you for your testimony so much, Mr. 
Korb.
    And I just will make some statements more for the record 
based on what I heard mainly from General Keane. There was only 
so much that you could take until we, in fact, had to leave the 
room for a while, and so I think I am back and maybe can 
articulate some things after so much of the frustration of 
having to listen to what we listened to.
    But let me just first say that the description of Iraq as 
if at some point or another that it is a place that I might 
take the family for a vacation, things are going so well--those 
kinds of comments will, in fact, show up in the media and 
further divide this country, instead of saying, ``Here is the 
reality of the problem, and, people, we have to come together 
and deal with the reality of this issue.''
    Second of all, we have probably as much or more military in 
my district than anyone, and I hear over and over again that 
the Marines are at war, the Army is at war, and this country is 
at the mall, and the implication that it will take too much 
time for the President to come together and say that will take 
too much time for him to sign this waiver is almost more than I 
can sit here and bear.
    This country has to come together, and to ask him to sign a 
waiver, I think, is very much not only the right of this 
Congress, but it is our moral responsibility to do so.
    And, finally, I would just like to share a story. When I 
was speaking back at home with one of a very right-wing 
conservative talk-show hosts and, thank God, after we were off 
the air--I said something that I assumed he would agree with, 
and I just said, you know, ``I am really worried about these 
guys and gals--mainly guys--that have gone and they have been 
redeployed now three and four times.''
    He came back to me and said, ``You know what? They should 
have thought about that before they enlisted, before they 
signed up.'' He said, ``It is their fault.''
    And I was so upset. I looked at him, and I said, ``With all 
due restraint''--and I said no respect, not with all due 
respect, because, quite honestly, I have no respect for that 
kind of an opinion--with all due restraint--and I got myself 
calmed down and left the room.
    But I am very disappointed. I would hope that General Keane 
would not say that, but I am very disappointed that, where is 
he to get up and defend and take care of the men and women who 
have so honorably served our country? Where is he? And where is 
the rest of this military to say this is the right thing to do?
    Now, with all due respect, this country has to come 
together and first and foremost deal in the reality of the 
situation and find a way to come together and put these crazy 
partisan politics behind us and come up with a way forward, and 
maybe that is where I should stop.
    And I will yield back my time.
    The Chairman. I thank the gentlelady.
    Mr. Wilson from South Carolina.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And, indeed, we are expecting votes any time now, so I will 
just make a statement myself. And, in fact, my statement is how 
much I appreciate the heartfelt praise that General Keane has 
given for our troops. I share his view. I share the view that 
we have the new greatest generation who has dedicated 
themselves to protecting American families by understanding 
that we must stop the terrorists overseas so they do not return 
to the United States.
    Additionally, I have the perspective that I have visited 
Iraq seven times. I have visited Afghanistan three times. I 
particularly am very proud of the National Guard. I served 31 
years in the National Guard. I was able to visit in Afghanistan 
2 months ago with the 218th Mechanized Infantry Brigade that I 
served with for over 20 years. I know hundreds of the people in 
that unit. They are so proud to be serving. They are so proud 
and understand the importance of what they are doing.
    There is not this feeling that I have heard of negativism 
at all, and their families are so proud of their service, and, 
again, I understand the extraordinary circumstance of the young 
people serving our country because I have four sons who are 
serving in the military. One served for a year in Iraq. Another 
has served in Egypt. Another will be deployed soon. And so I am 
very, very grateful for the young people serving our country.
    Additionally, this month, I visited and participated in the 
graduation of the recruits at Parris Island that I represent. I 
earlier had been at a graduation at Fort Jackson that I 
represent for new recruits. The young people coming in are 
extraordinary. I mean, it just makes you feel so good.
    And I really wish the American people could see the quality 
of the young people who are enlisting, the quality of the young 
people who are serving. It just would make your heart burst, as 
General Keane indicated, and so, again, I hope more people have 
the opportunities that I have had and get to know the people, 
as I have, particularly the persons serving in our military.
    And, again, I am just grateful for their service. They are 
protecting America, and their success, I believe, has been 
shown because we have not had a major attack in the United 
States since 9/11, and we need to keep that in mind, that that 
was an attack on us. It was preemptive by the enemy, not by us.
    I yield the balance of my time.
    The Chairman. Mr. Loebsack please.
    Mr. Loebsack. Thank you, Mr. Chair.
    First of all, I do want to thank you, Mr. Chair, for 
bringing up the issue of demons. I have only been in this 
Congress since January 4, and I wish General Keane were still 
here, because I would ask him specifically what demons he is 
referring to. Not much has sort of gotten to me since I have 
been here, but that statement did, as a matter of fact, get to 
me as a new Member of this Congress.
    I am not here to deal with demons or fears or whatever the 
case may be. I think I am here to, as the chairman said, 
legislate and do the best I can for the people in my district, 
and for the people of America.
    So thanks again, Chairman Skelton, for bringing that issue 
up at the time.
    I want to ask you, Mr. Korb, to respond to the general's 
comment. I think he said--I could be wrong--that this war is in 
America's national interest. Can you respond to that?
    Mr. Korb. This war was a war of choice that basically got 
us away from dealing with the real threat to the country. There 
were no weapons of mass destruction, no ties to al Qaeda, no 
connection to 9/11. And what it has done, as the recent 
National Intelligence Estimate pointed out, it has allowed al 
Qaeda to reconstitute itself on the Pakistan-Afghanistan 
border. Going in there was the best recruiting tool that al 
Qaeda has had.
    You have also had--and it has not even been discussed that 
much--evidence of blowback. A lot of the people, foreigners, 
who have gone into Iraq are going to go home with this training 
and cause problems in other parts of the world.
    And with all due respect to the people fighting, I have the 
greatest admiration for them, but if you look at the long-term 
trends of the people that you are bringing in, you are not 
going to have an Army that is as good as the Army that you sent 
in. If you take in 900 felons, if you cut down the number of 
people in basic training flunking-out by half, you are not 
going to get as good people.
    And when you see your West Point people leaving in levels 
that they have not done in 30 years, that is your future 
leadership. And people have talked a lot about retention here. 
Yes, retention is up for career people, but not for people 
completing their first tours. Those are the people that you 
need to keep in, and in a couple of years, we are going to have 
to deal with that situation.
    We do not have, even according to General Pace, the troops 
we need if something should happen in another place--Iran, 
North Korea, Pakistan--where we need to go. So we basically by 
doing this unnecessary war have weakened our security.
    Mr. Loebsack. Let us say that the United States is out of 
Iraq in the next 10 to 12 months, as I think you suggest in 
your testimony--and I know early on you talked about it being 
18 months, but we have seen a number of months go by now, and I 
assume that is how you are getting to 10 to 12 at this point--
but you mentioned that it is not necessarily in the interest of 
the neighbors of Iraq to intervene once we are out.
    Can you elaborate on that a little bit, and speak to the 
Syrians, if you will, too, and what might happen in Kurdistan 
as well?
    Mr. Korb. None of the nations in the region have an 
interest in Iraq becoming a failed state or a launching pad for 
international terrorists. And as we saw with the Iranians in 
Afghanistan, countries will do what is in their best interest. 
The Iranians helped us initially in Afghanistan because they 
felt threatened by al Qaeda and the Taliban.
    So you have to work with the countries in the region 
because each of them has got to realize that if it becomes a 
failed state, they are all threatened. They are all involved. 
Iran is involved. Syria is involved. Saudi Arabia is involved. 
And, basically, what you have to have them is involved 
constructively so that Iraq does not become a threat to its 
neighbors.
    We have urged at the center, back when the President came 
out with this military surge, a diplomatic surge could get the 
countries in the region involved, and I am convinced, until we 
set a date to leave, they are not going to do it because it is 
not in their interests to do so.
    Mr. Loebsack. Thank you, Mr. Korb.
    For the record, I do want to thank you and General Keane 
for your service. Thank you.
    The Chairman. Mr. Turner, please.
    Mr. Turner. Mr. Chairman, I want to thank you for holding 
this hearing. And this is so important to have this discussion 
in this manner because some of the statements that are made can 
be evaluated for the weight in which we need them for policy 
decisions.
    Mr. Korb, I was looking at your bio. We had a summary that 
was given to us by staff that incorrectly, I believe, referred 
to you as Dr. Korb, and you do not have a Ph.D.
    Mr. Korb. I do.
    Mr. Turner. You do have a Ph.D.? It is not in your bio, and 
we have materials that are conflicting, Mr. and Dr. What is 
your Ph.D. in?
    Mr. Korb. Political science.
    Mr. Turner. Political science. And that would go along with 
then when you told us that you are not a military expert 
because that was your words.
    Mr. Korb. I said I am not the expert that General Keane is, 
but my concentration has been on military affairs. That is what 
I have worked on. I have taught at the Navy War College, the 
Coast Guard Academy, and, obviously, I had some time in the 
Pentagon in the Reagan Administration.
    Mr. Turner. Yes. Yes, I see that in your bio. I did write 
down your words when you said you were not a military expert.
    What fascinated me, which I think is what is so important 
about your testimony, is that it says in your bio that you have 
made over 1,000 appearances as a commentator on shows such as 
``The Today Show,'' ``The Early Show,'' ``Good Morning 
America,'' ``Face the Nation,'' ``This Week with David 
Brinkley,'' ``The MacNeil-Lehrer NewsHour,'' ``The NewsHour 
with Jim Lehrer,'' ``Nightline,'' ``60 Minutes,'' some pretty 
substantial appearances on talk news on discussing the 
important policy issues that we have here.
    In looking at your testimony, you have given your 
testimony, you have made some statements that I think are 
consistent with a television commentator, but I looked at the 
citations because you have given us this testimony as if it is 
in an academic form, and I have not seen the citations like 
this before before the committee. That is why they caught my 
eye.
    Your first three footnotes of your testimony are to your 
own article. You cite yourself as the source of information for 
the first three footnote citations. I have not seen that very 
often where someone cites themselves.
    Then the next one that you cite, the first footnote that is 
not citing yourself, you cite the Web site of House Majority 
Leader Steny Hoyer as part of your credential for your 
testimony before the House Committee, a Web site of the 
Majority Leader Steny Hoyer.
    Then the remainder of your citations are all news articles. 
You cite the New York Times, The Washington Post, the Plain 
Dealer, the New York Times, USA Today, the Inter Press Service, 
Niemen Watchdog.
    You get down to the end where you cite the Congressional 
Research Service for the first time that you cite something 
that is not just a news item, and that citation relates to the 
Philippines in 1915, the Korean War in 1951, and the U.S. 
forces deployed to NATO in 1985, and then your citations end.
    So your citations are all--about this conflict and about 
this information that is before us--news sources. And I can 
tell you and the people on this committee I have a great deal 
of respect for, and I know we are all well-read. We have all 
read The Washington Post, The New York Times, USA Today.
    Usually, when we have a hearing where we have someone come 
before us to testify, we are looking for them to bring us 
information that is not just what we could have read in Time or 
New York. They do not just state their opinion as a TV news 
commentator, but they actually give us statistics and 
information which is relevant to the decision-making process, 
and I believe General Keane did that.
    I yield back.
    Mr. Korb. Do I get to respond?
    Mr. Turner. I yield back.
    Thank you, Mr. Chairman.
    Mr. Korb. General Keane had no footnotes and his were all 
opinion.
    Mr. Abercrombie. Mr. Chair, may I make a----
    The Chairman. Just a minute. Just a minute.
    Mr. Korb, do you want to respond?
    Mr. Turner, please listen to his response.
    Do you have a response to that?
    Mr. Korb. Normally, people do not. If you go and you look 
at the things I cited, the studies we have done at the center, 
they are footnotes, and you can take a look at it here. We tell 
you the sources. Then when I quote The Post, for example, it 
was an Army mental health study that was reported in The Post. 
That is what I am getting those, you know, figures from.
    The Niemen cite basically is General Odom, Lieutenant 
General William Odom's cite, about comparing what has happened. 
This is not a refereed article. Most people do not--General 
Keane had not a single source. His were all opinions, okay.
    If I were preparing this for an academic referee journal, I 
would obviously, you know, do better, but I had no time to do 
this. I was just called very quickly. And what I was trying to 
tell you is if you want more information, you can go to these 
things.
    And the Congressional Research Service was asked by the 
Congress to take a look in support of these amendments, which 
is why I went to those things.
    But I will put my record in terms of scholarship, in terms 
of analysis of war, in terms of military issues up against 
anybody.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, Mr. Korb.
    The Chairman. Thank you.
    Mr. Abercrombie. Mr. Chairman.
    The Chairman. Mr. Korb----
    Mr. Abercrombie. Mr. Chairman. Mr. Chairman, a point of 
information.
    The Chairman. Go ahead.
    Mr. Abercrombie. Just so the record is clear on this, my 
first contact with Mr. Korb, which he will not remember after 
his long and distinguished career, was when he was the 
Assistant Secretary of Defense for manpower, reserve affairs, 
installation and logistics, and I was a member of the Hawaii 
state legislature in charge of education and impact aid.
    Mr. Korb was kind enough to take time out to spend time 
with a little state legislator who had all these serious 
concerns. And if he was good enough for Ronald Reagan, 
apparently, he was good enough to talk with Representative 
Abercrombie and inform him.
    And I never forgot that exchange, I can tell you, and that 
must be more than a quarter of a century ago. He does not 
remember me, but I remember him.
    The Chairman. Everybody remembers you, Mr. Abercrombie.
    Mr. Korb. I remember you.
    Mr. Loebsack. Mr. Chair, may I have 30 seconds?
    The Chairman. First, let me say that I worked, well, a good 
number of years ago when you were on Ronald Reagan's staff and 
you were an assistant secretary. We thank you for your service 
then as well as now. This is very, very important.
    Mr. Loebsack, do you have a comment?
    Mr. Loebsack. Yes, just for a few seconds. As someone who 
has a Ph.D. in political science myself, and having taught for 
24 years at a small college, I am happy to say I believe that 
Mr. Korb is eminently qualified to speak on these issues, much 
more so than I am, certainly.
    And I have had the pleasure of having him in class two 
times at Cornell College in Iowa, and I can attest to his 
credentials. And I think that he is one of the very few people 
here in Washington, D.C., who has managed to combine academic 
credentials and government service to the extent to which he 
has. And I vouch for his academics as well as his professional 
career.
    The Chairman. Thank you very, very, very much.
    Now, Mr. Sestak, before calling you, we did announce 
earlier that there is a drop dead moment on this hearing, which 
would be high noon. So you take your five minutes. Then, 
unfortunately, we will have to close this hearing.
    Mr. Sestak. Thank you. Thank you, Mr. Chairman.
    The Chairman. Please proceed.
    Mr. Sestak. I think I will have three comments, if I might.
    On the first, the general has left, but it would be remiss 
of me not to talk about the comment about demons. I think the 
general, if he was here, would recognize that General Shelton, 
who he and I both respected so much, when he was chairman of 
the Joint Chiefs of Staff at the beginning of Mr. Rumsfeld's 
era, used to hand out a book called ``Dereliction of Duty.''
    He just asked all of us to remember that the failure at 
times during Vietnam for men and women to speak up might have 
helped lead to the wrong course. And so I think in the emotions 
of all this, there are demons, but I like to think about it as 
the debate of frank ideas.
    Second, I want to speak about these two pieces of 
legislation that Ms. Tauscher brought and said we really are 
here today. In the very first one, I think a good comment was 
made by the general. The study that was done at the end of 
Vietnam had shown that if we had not rotated our troops out of 
Vietnam, we actually would have had better warfighting 
capability. Men and women learn, and then they are more 
proficient.
    Like we did in World War II, we kept our men and women out 
there. But the difference between World War II and this war is 
that, on average, a man, a woman in combat in World War II did 
180 days combat. Our men and women in Iraq, in their 15 months, 
every day, they do combat. Every day, they go outside the wire, 
and they do not know when that car is there.
    And so there is a constitutional duty that says for 
Congress to provide for the rules and regulation of our armed 
services. We would be remiss not to see if the rule of 
turnaround time was proficient.
    To my colleague from California, it is a requirement, I 
understand, that might take a little bit of more effort, but 
our national command authority, is by law the President and the 
Secretary of Defense are required before any unit deploys 
overseas to approve it. It is just merely a paper over here to 
say they need it. Now, normally, the Secretary of Defense 
approves it, but they have national command authority, and both 
of them have to approve it. So I think that is good.
    The second one is I am very interested in this one by Mr. 
Abercrombie that is being submitted because we can learn from 
it. We have to keep in mind that before we set any date 
certain, we have a lot to learn over here. Somalia took us 5 
months to get 6,300 troops out, and we inserted 19,000 
personnel to protect them. The Russians took 9 months to get 
out of Afghanistan with less troops, and 500 died on the way.
    Right now today, we have 40 brigade combat teams in Iraq 
equivalent. You can only put two through Kuwait because you 
know you have to wash them, customs, put shrink wrap on them, 
put them in a boat. They can do two brigades, maybe two and a 
half a month, unless we build more facilities there. That is 15 
to 20 months alone, if you go by how we do it.
    And if you look at the plan the Army had in 2006 to close 
the forward operating bases (FOB) in Iraq, because they did 
look at this, there are 58 of them. They want to do four at a 
time in that plan. You know what that means? It is 100 days to 
close 4 at a time. You work that out, you are almost to four 
years, if you want to close up the FOB and clean up after it.
    So this is an important piece of legislation. And I am a 
person who believes in a date certain for the reasons, Mr. Korb 
you say, but we have to make sure that ending this war is 
necessary, but insufficient, how, and the means by which we do 
it have a lot to do with the safety of our troops, as they have 
to come down Route Tampa, one road to Kuwait.
    It already has 2,000 trucks a day on it. Imagine everyone 
coming together, packing their stuff. You have to have security 
convoys. You have to get in Kuwait. You have to time the ships. 
Our due job is to make sure as we provide for the common 
defense to make sure that there is some thinking on it so that 
we do not inherently put more of a mess out there by the wrong 
date certain.
    So I am taken by these comments, and I will wrap up of why 
these two pieces of legislation are important for us and our 
constitutional duty and to make sure as we do do things, we 
have the data not to make a mistake.
    Comment?
    Mr. Korb. Well, I think you are quite right. We want to 
make sure that we get out much more carefully than we went in.
    The Chairman. I thank the gentleman.
    And, Dr. Korb, we thank you.
    And we have already said goodbye and thanked General Keane 
a few moments ago.
    We will reconvene at 1 p.m., and I hope we have full 
attendance to mark up two bills.
    And I thank you for the testimony and the participation 
today.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 27, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 27, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5061.001
    
    [GRAPHIC] [TIFF OMITTED] T5061.002
    
    [GRAPHIC] [TIFF OMITTED] T5061.003
    
    [GRAPHIC] [TIFF OMITTED] T5061.004
    
    [GRAPHIC] [TIFF OMITTED] T5061.005
    
    [GRAPHIC] [TIFF OMITTED] T5061.006
    
    [GRAPHIC] [TIFF OMITTED] T5061.007
    
    [GRAPHIC] [TIFF OMITTED] T5061.008
    
    [GRAPHIC] [TIFF OMITTED] T5061.009
    
    [GRAPHIC] [TIFF OMITTED] T5061.010
    
    [GRAPHIC] [TIFF OMITTED] T5061.011
    
    [GRAPHIC] [TIFF OMITTED] T5061.012
    
    [GRAPHIC] [TIFF OMITTED] T5061.013
    
    [GRAPHIC] [TIFF OMITTED] T5061.014
    
    [GRAPHIC] [TIFF OMITTED] T5061.015
    
    [GRAPHIC] [TIFF OMITTED] T5061.016
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 27, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5061.017
    
    [GRAPHIC] [TIFF OMITTED] T5061.018
    
    [GRAPHIC] [TIFF OMITTED] T5061.019
    
    [GRAPHIC] [TIFF OMITTED] T5061.020
    
    [GRAPHIC] [TIFF OMITTED] T5061.021
    
    [GRAPHIC] [TIFF OMITTED] T5061.022
    
    [GRAPHIC] [TIFF OMITTED] T5061.023
    
    [GRAPHIC] [TIFF OMITTED] T5061.024
    
    [GRAPHIC] [TIFF OMITTED] T5061.025
    


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 27, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MURPHY

    Mr. Murphy. In December, sir, you wrote in the Washington Post 
that: ``Bringing security to Baghdad is possible only with a surge of 
at least 30,000 combat troops lasting 18 months or so. Any other option 
is likely to fail.'' Despite the fact that my former unit, the 82nd 
Airborne, has been part of this most recent escalation since January, 
we constantly hear from my friends on the other side of the aisle that 
the ``surge'' only really went into place in June. Therefore, General 
Keane--from my calculation--you believe that we need to wait until 
January of 2009 if we are to see true progress resulting from an 
escalation of troops.
    I therefore have two questions: (1) In light of the testimony we 
have heard--especially from Dr. Korb and Chairman Skelton--as to how 
this conflict has overextended our Armed Forces, do you believe we 
could find the troops to maintain such an escalation? And a closely 
related follow up: (2) given that there is a near unanimity that we 
can't maintain such heightened troop levels--is there any point in this 
Congress waiting until September to act when you yourself admit that a 
surge of that time frame ``is likely to fail.''
    I also want to take your arguments to their logical end. In the 
same article, sir, you state--``of all the `surge' options out there, 
short ones are the most dangerous.'' So from my understanding of your 
logic--and if history is any guide most likely the President's--if 
General Petraeus reports progress in September, should the American 
people prepare themselves for a recommendation from this Administration 
that 140,000 to 150,000 troops remain in Iraq for an extended period of 
time?
    General Keane. [The information referred to was not available at 
the time of printing.]

                                  <all>

</pre></body></html>
